<html>
<title> - TOWARD A LOGICAL GOVERNING STRUCTURE: RESTORING EXECUTIVE REORGANIZATION AUTHORITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
       TOWARD A LOGICAL GOVERNING STRUCTURE: RESTORING EXECUTIVE 
                        REORGANIZATION AUTHORITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 3, 2003

                               __________

                           Serial No. 108-33

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
88-502 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 3, 2003....................................     1
Statement of:
    DeLay, Hon. Tom, a Representative in Congress from the State 
      of Texas...................................................    17
    Dorn, Nancy, Deputy Director, Office of Management and 
      Budget; and David M. Walker, Comptroller General, U.S. 
      General Accounting Office..................................    21
    Ink, Dwight, president emeritus, Institute of Public 
      Administration; Paul C. Light, director, center for public 
      service, the Brookings Institution; Colleen M. Kelley, 
      president, National Treasury Employees Union; and Mark D. 
      Roth, general counsel, American Federation of Government 
      Employees..................................................    82
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................    15
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    10
    Davis, Hon. JoAnn, a Representative in Congress from the 
      State of Virginia, followup questions and answers..........    63
    DeLay, Hon. Tom, a Representative in Congress from the State 
      of Texas, prepared statement of............................    19
    Dorn, Nancy, Deputy Director, Office of Management and 
      Budget, prepared statement of..............................    25
    Ink, Dwight, president emeritus, Institute of Public 
      Administration, prepared statement of......................    85
    Kelley, Colleen M., president, National Treasury Employees 
      Union, prepared statement of...............................    98
    Light, Paul C., director, center for public service, the 
      Brookings Institution, prepared statement of...............    91
    Roth, Mark D., general counsel, American Federation of 
      Government Employees, prepared statement of................   106
    Walker, David M., Comptroller General, U.S. General 
      Accounting Office, prepared statement of...................    35
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     6


       TOWARD A LOGICAL GOVERNING STRUCTURE: RESTORING EXECUTIVE 
                        REORGANIZATION AUTHORITY

                              ----------                              


                        THURSDAY, APRIL 3, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2157, Rayburn House Office Building, Hon. Tom Davis of Virginia 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Shays, Mrs. 
Davis of Virginia, Platts, Duncan, Miller, Waxman, Maloney, 
Cummings, Tierney, Clay, Watson, Van Hollen, and Ruppersberger.
    Staff present: Peter Sirh, staff director; Melissa Wojciak, 
deputy staff director; Keith Ausbrook, chief counsel; Ellen B. 
Brown, legislative director and senior policy counsel; David 
Marin, director of communications; Scott Kopple, deputy 
director of communications; Mason Alinger, professional staff 
member; Teresa Austin, chief clerk; Joshua E. Gillespie, deputy 
clerk; Corinne Zaccagnini, chief information officer; Brien 
Beattie, staff assistant; Anne Marie Turner and John Hunter, 
counsels; Phil Barnett, minority chief counsel; Michelle Ash, 
minority counsel; Tania Shand, minority professional staff 
member; Earley Green, minority chief clerk; Jean Gosa, minority 
assistant clerk.
    Chairman Tom Davis. Good morning. Thank you all for coming. 
The purpose of today's hearing is to discuss the 
reauthorization of the Executive reorganization authority which 
grants the President the authority to initiate organizational 
changes within the executive branch.
    Executive reorganization authority was first enacted as 
part of the Economy Act of 1932 under President Herbert Hoover 
and periodically reauthorized under Presidents Roosevelt, 
Truman, Carter, and Reagan until it lapsed in 1984. Since then, 
despite interest in reauthorization authority in both the 
executive branch and in Congress as a way to encourage the 
President to take the initiative in organizational management 
issues, momentum has not built up behind the authority until 
recently.
    In the President's management agenda, which was included as 
part of the fiscal year 2003 budget proposal, President Bush 
stated the following: ``The administration will seek to 
reinstitute permanent reorganization authority for the 
President through expedited legislative approval of plans to 
reorganize the executive branch.''
    The management initiatives in the President's management 
agenda offered an unprecedented focus on improving the 
management practices of the Federal Government. Unfortunately, 
the unforeseen debate over the creation of a new Department of 
Homeland Security trumped any serious discussions in the last 
session of Congress regarding Executive reorganization 
authority or the other initiatives included in the management 
agenda.
    In the wake of the long and arduous debate on the creation 
of a new department, one thing is clear: given our current 
organizational structure in Congress, it is exceedingly 
difficult for Congress to undertake even the simplest 
reorganization of the executive branch. For example, for 
Congress to even consider a restructuring of the dozen Federal 
offices involved in food safety, over 30 committees and 
subcommittees in Congress would be involved. I can't imagine 
what it would take to get all 30 committees and subcommittees 
to come to agreement over how to reorganize the structure of 
Federal food safety oversight.
    In an attempt to address this issue of congressional 
stalemate over reorganizations, the National Commission on the 
Public Service, also known as the Volcker Commission, came to 
the same conclusion that the President did in his management 
agenda: Congress should reauthorize the Executive 
reorganization authority. We heard testimony here from Chairman 
Volcker and Donna Shalala and others of calling for Congress to 
do exactly that.
    I agree with the President and with the Volcker Commission 
that Executive reorganization authority may be the only way 
that we can realistically improve the efficiency and 
effectiveness of Government operations, but it is essential for 
this committee to include sufficient safeguards in the 
legislation that will address some of the biggest concerns 
raised by affected parties, especially those concerns made by 
the Federal work force, who will be directly impacted by any 
Government reorganization.
    I hope that today's discussion of Executive reorganization 
authority is a thoughtful and fruitful one. I am well aware 
that there is a reluctance in some groups to granting the 
President additional authority to make changes to the Federal 
Government; however, I hope that we can all come to the 
conclusion that certain operational restructurings that have a 
minimal impact on Federal policy may best be initiated and 
developed by the experts in the executive branch rather than by 
the generalists in Congress.
    We've gathered today an outstanding group of witnesses 
before us today who will provide members of this committee with 
perspectives from all sides on the issue as we move forward. I 
look forward to working with both the witnesses and the Members 
as we consider this important legislation. I welcome all the 
witnesses in today's hearing. I look forward to their 
testimony.
    [The prepared statement of Chairman Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T8502.001
    
    [GRAPHIC] [TIFF OMITTED] T8502.002
    
    Chairman Tom Davis. I would now like to recognize Mr. 
Waxman, the ranking Democratic member of the committee.
    Mr. Waxman. Thank you, Mr. Chairman. I'd like to commend 
you for holding this hearing today.
    Executive branch reorganization is an important issue that 
this committee should consider carefully. Within the executive 
branch there are certainly areas of jurisdictional overlap. For 
example, as you pointed out, 12 different agencies are 
responsible for administering food safety laws. Similar 
overlaps exist with job training, teen pregnancy, and homeless 
programs, to name a few. These overlaps are ripe for review.
    In addition, some agency programs were created to respond 
to problems that may not even exist today, and new problems of 
today may not properly be addressed by the current Federal 
Government structure. In 1995, GAO testified as new challenges 
arose or new needs were identified, new programs and 
responsibilities were added to departments and agencies with 
insufficient regard to their effect on overall delivery of 
service to the public.
    Thus, I believe it is appropriate for Congress and this 
committee in particular to examine how the executive branch is 
organized. One question we will have to address is how Congress 
should consider reorganization proposals. I know that there are 
those who favor transferring most of the responsibility for 
Executive reorganization from the Congress to the White House. 
This may not be the wisest course. Ultimately, any successful 
reorganization effort depends on the President and the Congress 
working together and doing so on a bipartisan basis.
    There is one other point I want to stress. As we focus on 
making Government work more effectively and efficiently, we 
cannot overlook the importance of our Federal civil service. 
Federal employees are the heart and soul of our Government. 
Unfortunately, the White House has a terrible track record on 
civil service issues. It has worked to strip away collective 
bargaining rights, reduce Federal pay, and reinstate bonuses to 
political appointees. As a result, there are many who believe 
that the call for more reorganization is simply a code word for 
another assault on Federal employees. I know that this is not 
the chairman's intent, but this perception is a legacy of past 
administration actions. We will have to find ways to address 
the genuine concerns of Federal employees as we consider any 
future reorganization proposals.
    I look forward to hearing from the witnesses on the 
important issue before us today.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] T8502.003
    
    [GRAPHIC] [TIFF OMITTED] T8502.004
    
    [GRAPHIC] [TIFF OMITTED] T8502.005
    
    Chairman Tom Davis. Any other opening statements? Mrs. 
Davis, chairwoman of the Civil Service Subcommittee.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman. Mr. 
Chairman, I want to say thank you for calling this hearing on 
reorganization authority. You know, when you take a step back 
and look at the current organization of the Federal Government, 
you find that in many cases there is absolutely no rhyme or 
reason to the Government structure. Agencies performing similar 
missions are often located within different Cabinet 
departments. This problem was underscored during the creation 
of the Homeland Security Department, as we've heard this 
morning, when Congress and the President took 22 agencies with 
a similar mission, protecting our Nation's borders and guarding 
against terrorism, and put them in the same department. Imagine 
that--one department, 22 agencies, but the same basic mission. 
There is a logic there that is too often lacking in the rest of 
the executive branch.
    The Volcker Commission spelled this out quite clearly in 
its recent report. It noted, for example, that there are 90 
early childhood programs scattered among 11 agencies in 20 
offices, 342 economic development programs administered by 13 
of the 14 Cabinet departments, and 50 homeless assistance 
programs spread out over 8 agencies. Lack of coordination among 
these agencies is certainly a concern, not to mention that, 
given the structure, the Government probably has redundant 
operations.
    Mr. Chairman, it seems impossible to have a highly 
efficient Government without a logical governmental structure. 
An inefficient, ineffective Government is bad for the 
employees, bad for the Government, and bad for the citizens. 
Congress and the President ought to reexamine the present 
structure of Government to determine if there are places to 
achieve better cohesion of functions.
    I look forward to hearing the views of our distinguished 
guests today on this matter of restoring fast track 
reorganization authority to the President.
    I thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    The Chair will suspend any other opening statements at this 
point.
    We are pleased to have with us today the majority leader, 
the gentleman from Texas, who has shown a constant interest in 
reorganization authority.
    Tom, we are very happy to have you here today, and we'll 
move right to your testimony.
    Mr. Waxman. Mr. Chairman, may I ask unanimous consent that 
all Members' opening statements be entered in the record? I 
know that Danny Davis has a statement he'd like to have 
entered.
    Chairman Tom Davis. If there is no objection, so ordered. 
Thank you.
    [The prepared statements of Hon. Danny K. Davis and Hon. 
Wm. Lacy Clay follow:]
[GRAPHIC] [TIFF OMITTED] T8502.006

[GRAPHIC] [TIFF OMITTED] T8502.007

[GRAPHIC] [TIFF OMITTED] T8502.008

[GRAPHIC] [TIFF OMITTED] T8502.009

[GRAPHIC] [TIFF OMITTED] T8502.010

[GRAPHIC] [TIFF OMITTED] T8502.011

[GRAPHIC] [TIFF OMITTED] T8502.012

STATEMENT OF HON. TOM DELAY, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. DeLay. Thank you, Mr. Chairman and Mr. Waxman, other 
members of the committee. It is an honor to be with you today 
to discuss the reauthorization of the President's Executive 
reorganization authority. To me, there's no greater management 
challenge to the Federal Government than its antiquated 
organizational structure.
    In order to meet the needs of the American people, the 
Government must modernize, just as every successful school, 
business, and nonprofit group has in recent years. The 
President's management agenda is designed to establish a 
Government fit to meet the needs of a 21st century nation. A 
vital component of this agenda is the restoration of Executive 
reorganization authority to the President, which expired in 
1984 and now requires congressional action. This authority was 
held and successfully employed by Presidents from both parties 
for more than 50 years. It is ironic that the President's 
authority to reorganize the Government expired in 1984, the 
very year the personal computer revolution launched two decades 
of efficiencies and reforms in the way people work.
    The Federal Government has lagged behind that revolution, 
clinging to an organizational model developed between the 
1930's and the 1970's. Failing to exploit the benefits of a 
modernized organization, a mistake that would bankrupt any 
business in our competitive economy, has riddled Federal 
programs with expensive and inefficient bureaucracies.
    Now, this model has led to the proliferation of wasteful, 
overlapping programs across the Federal Government. One can 
find such programs in almost any agency and department. For 
instance, the Department of Health and Human Services manages 
27 individual programs to support teen pregnancy prevention at 
an annual cost of some $200 million. Each has its own standards 
and its own goals. Each is targeted at a different audience. 
HHS also manages seven separate agencies that fund programs to 
prevent child abuse. The Department of Justice houses two more. 
In the Department of Energy, 45 different offices awarded 
separate contracts for the same computer data base program, and 
24 offices awarded separate contracts for the same Internet 
security program.
    Now, I don't mean to single out these program agencies or 
programs. They are merely symptoms of an overall problem in the 
Federal bureaucracy that has ignored the modernizing 
efficiencies embraced by the rest of the world. And this isn't 
about reorganizing for its own sake. There is no doubt the 
Federal Government expends a tremendous amount of effort and 
resources through these agencies to provide vital services to 
the people who need them, but duplicative programs and agencies 
too often only contribute to the very problems they are 
designed to solve. These problems are real, they affect real 
Americans every day, and they need to be solved.
    We spend a great deal of energy and money to solve them, 
but the evidence suggests we are not spending that energy and 
money wisely. Meanwhile, the problems persist, and for too many 
they are getting worse. The staggering array of Government 
programs today is confusing and inefficient, but in a modern 
and innovative society they don't have to be. Successful 
businesses in the last 20 years have demonstrated agility, 
responsiveness to shifting demands, and a commitment to 
consumer service.
    By contrast, the culture of the Federal bureaucracy, laden 
for decades with layer upon layer of new programs, produces 
sluggishness, a resistance to change, and confusion among its 
workers and intended beneficiaries, alike. The American people 
pay for these programs. They have a right to expect them to 
work.
    To make the necessary reforms, the President needs the 
freedom to shape and manage a 21st century government that is 
responsive and accountable to its constituents. Mr. Chairman, 
restoring Executive reorganizational authority to the President 
will help him do just that, and I urge this committee to mark 
up this bill and get it out as soon as possible.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. DeLay follows:]
    [GRAPHIC] [TIFF OMITTED] T8502.013
    
    [GRAPHIC] [TIFF OMITTED] T8502.014
    
    Chairman Tom Davis. That's quite a charge you have given 
us. This has lingered around now almost 20 years without 
Presidents having that authority, and you can see, with the 
fiasco that we went through last year with Homeland Security, 
this still involves Congress in the process but I think allows 
the job to get done.
    I know you have other places you need to go, Mr. Leader, 
but I appreciate your being here.
    Mr. DeLay. Thank you, Mr. Chairman. And thank you for the 
time of the committee.
    Chairman Tom Davis. Thank you very much.
    I think we are ready to call our first panel, if we could 
have our first panel, if the clerks would get the name tags 
here. We have Nancy Dorn and Dave Walker.
    If you would rise with me, it is the policy of the 
committee we swear all witnesses.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much.
    Ms. Dorn, why don't we start with you and then Mr. Walker, 
and then we'll open it for questions. And thank you very much 
for being here with us today.
    Please proceed.

STATEMENTS OF NANCY DORN, DEPUTY DIRECTOR, OFFICE OF MANAGEMENT 
  AND BUDGET; AND DAVID M. WALKER, COMPTROLLER GENERAL, U.S. 
                   GENERAL ACCOUNTING OFFICE

    Ms. Dorn. Thank you, Mr. Chairman. Mr. Chairman, members of 
the committee, I am happy to be with you today as you begin to 
consider reauthorization of the Reorganization Act which 
expired in 1984, as you pointed out.
    The Bush administration strongly supports reauthorization 
of the Reorganization Act. Reorganization authority would give 
this President, as it has for others dating back to 1932, the 
power to propose organizational changes to Federal agencies and 
require Congress to disapprove or approve the action without 
lengthy delays. If enacted, this authority would be another 
powerful tool for this President to use to improve the 
management of the executive branch of the Federal Government.
    Between 1953 and 1980 when reorganization authority was in 
effect, 65 reorganization plans were submitted to the Congress. 
Only eight of those plans were rejected. But what has happened 
since 1980, from expanding globalization to advances in 
technology, in addition to the growth in Government, make the 
need for reorganization authority now more important than ever.
    The reasons for wanting reorganization authority--the 
ability to bring sense to the chaos that is the Federal 
Government--are very clear. As Congressman DeLay pointed out, 
the number of Federal agencies has grown substantially. Many of 
the existing departments and agencies were created in response 
to the crisis of the moment, and as a result many of the 
Government's important missions are accomplished today by 
multiple organizations within the executive branch.
    You pointed out a few examples, and I have a few others 
here, such as 342 economic development programs in 13 different 
agencies, 17 Federal departments and agencies operate 515 
research and development labs, and numerous agencies are 
involved in trade and export promotion.
    In some cases, coordination among agencies is exemplary, 
but clearly that is not always the case. Consequently, 
duplication and fragmentation abound. Overlap and duplication 
often result in waste and inefficiency, which this 
administration is committed to reducing. More importantly, such 
duplication often hampers the Government's ability to achieve 
clear results. Reorganization authority would allow the 
executive branch increased flexibility in working to achieve 
improved management practices and more streamlined 
organization.
    The National Commission on the Public Service came to 
similar conclusions in its recently released report, ``Urgent 
Business for America: Revitalizing the Federal Government for 
the 21st Century.'' Charged to examine the state of the Federal 
public service, the Commission came to the thoughtful 
conclusion that our public servants could serve more 
effectively if the Federal Government's chaotic organization 
was simplified.
    There is a quote from the report that I thought was 
particularly interesting. It said, ``The current organization 
of the Federal Government in the operation of public programs 
are not good enough. They're not good enough for the American 
people, not good enough to meet the extraordinary challenges of 
the century just beginning, and not good enough for the 
hundreds and thousands of talented Federal workers who hate the 
constraints to keep them from serving their country with the 
full measure of their talents and energy. We must do better, 
much better, and soon.''
    You are, I'm sure, well aware of the recommendations of the 
Commission related to Government reorganization. In short, they 
recommended that the Federal Government should be reorganized 
into a limited number of mission-related Executive departments, 
the President should be given expedited authority to recommend 
structural reorganization of Federal agencies and departments, 
and the House and Senate should realign their committee 
oversight to match the mission-driven reorganization of the 
executive branch. These are three of the numerous 
recommendations that they made, but certainly among the more 
significant ones and the subjects of today's hearing.
    This administration's recent experience with the Department 
of Homeland Security suggests that reorganization authority 
would give us a running start to achieve substantial progress 
in addressing overlap and duplication in the Federal 
Government. In the case of the Department of Homeland Security, 
the President's proposal to create a new department came out of 
one of the greatest crises in our Nation's history. This event 
laid bare the fact that our homeland security apparatus needed 
to be rationalized and strengthened, and soon.
    The President proposed and the Congress endorsed bringing 
together 22 agencies into a new Department of Homeland 
Security, but as the Volcker Commission suggests, creating the 
Department of Homeland Security was daunting, requiring 
extensive and excruciating political negotiations. It was worth 
it. Americans will be safer because of it. But the Federal 
Government should not have to engage in a divisive and time-
consuming fight like the one to create the Department of 
Homeland Security just to bring greater order to a specific 
Government mission, nor should we wait for a crisis to focus 
our attention on strengthening and rationalizing Government 
functions. The authorization of the Reorganization Act would 
allow this and future administrations the opportunity to avoid 
such difficulties in responding to future challenges.
    Many in Congress are clamoring for some device to address 
the Government's seeming inability to rationalize its own size 
and scope. Congressman Kevin Brady has proposed legislation 
that would establish a Federal commission to examine the 
performance and purpose of Government agencies. The 2004 Senate 
budget resolution included a Sense of the Senate amendment 
offered by Senator Brownback which endorsed the creation of a 
commission to review Federal domestic agencies and programs 
within such agencies, with the express purpose of providing 
Congress with recommendations, and legislation to implement 
those recommendations.
    These initiatives are aimed at streamlining the process by 
which the Congress and the administration consider improvements 
to Government reorganization. The Reorganization Act has the 
benefit of a long history and a precedent.
    I want to note for the benefit of the committee, as it 
considers this idea, that without the integration of other 
managerial flexibilities outlined in the President's 2004 
budget and the President's management agenda, that the benefits 
of reorganization authority would be largely illusory. The 
Federal Government needs modern asset and personnel management 
flexibilities, and a human capital performance fund would give 
the agencies a critical tool in promoting pay for performance 
for Federal employees.
    I don't want to leave the committee with the idea that 
without reorganization authority we cannot make substantial 
progress in improving Government management. We are continuing 
to focus on a number of key areas in the context of the 
President's management agenda, such as: strategic management of 
human capital, competitive sourcing, improved financial 
performance, expanded electronic government, and budget and 
performance integration. Congress and others have consistently 
supported the need for immediate management attention in these 
areas. We are also pursuing a number of management changes 
through the traditional method of piece-by-piece, agency-by-
agency, program-by-program rationalization in the context of 
the annual budget and authorizing legislation.
    In the face of a massive looming retirement wave, the U.S. 
Government is hiring and retaining the right people with the 
right skills and holding them accountable for serving the 
American public. We are improving our business processes and 
ensuring that only the most effective and efficient source is 
providing Government services.
    Because of the management agenda, the Government is 
improving the quality and timeliness of financial information 
so it can be used to manage Federal programs and prevent waste, 
fraud, and abuse. We're providing enhanced services directly to 
citizens over the Internet and improving the management of 
information technology.
    We'll continue our drive to improve the performance and 
management of the executive branch, but, as so many experts in 
the management of government have suggested, reorganization 
authority is another tool that can greatly enhance the prospect 
that Government can be better structured to meet the challenges 
of the 21st century.
    I applaud this committee for considering this important 
proposal and look forward to working with you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Ms. Dorn follows:]
    [GRAPHIC] [TIFF OMITTED] T8502.015
    
    [GRAPHIC] [TIFF OMITTED] T8502.016
    
    [GRAPHIC] [TIFF OMITTED] T8502.017
    
    [GRAPHIC] [TIFF OMITTED] T8502.018
    
    [GRAPHIC] [TIFF OMITTED] T8502.019
    
    [GRAPHIC] [TIFF OMITTED] T8502.020
    
    [GRAPHIC] [TIFF OMITTED] T8502.021
    
    [GRAPHIC] [TIFF OMITTED] T8502.022
    
    Chairman Tom Davis. We will now hear from the Comptroller 
General of the U.S. General Accounting Office, David Walker. 
Thank you for being with us, Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman and members. It is a 
pleasure to be here. I've got an extensive statement that I 
would like to be included into the record, if that's all right, 
Mr. Chairman.
    Chairman Tom Davis. Fine.
    Mr. Walker. And I will now move to summarize the key 
points.
    Given current trends facing the United States and its 
position in the world, as well as our growing fiscal 
challenges, there is a clear and compelling need to conduct a 
fundamental review and reassessment of what the Federal 
Government should do and how the Federal Government should do 
business in the 21st century. Looking at the organization of 
the Federal Government is an important part, but only a part of 
this overall effort. Executive reorganizational authority is a 
tool that has been available to many Presidents in the past--in 
fact, as you mentioned, Mr. Chairman, from 1932 until 1984. It 
has been used to varying degrees by different Presidents with 
mixed results. This authority lapsed in 1984 when President 
Ronald Reagan did not seek to reauthorize it.
    In my opinion, Mr. Chairman, the time has come to consider 
such a reauthorization. In doing so, Congress should consider 
past reorganization experiences and recent proposals by this 
administration dealing with management and other reforms. 
Congress should consider the nature and scope of any proposed 
reorganization proposal in determining how much of its 
authority it wishes to give up and how many of its procedures 
it is willing to modify--such things as timeframes, the amount 
of debate, and whether or not amendments would be appropriate.
    Clear differences may be appropriate in connection with 
policy-driven versus operationally motivated proposals. There 
needs to be a balance between reasonable flexibility to assure 
expedited action and appropriate safeguards to make sure that 
the Congress has an opportunity to engage in reasonable debate 
and deliberation.
    Irrespective of the authority granted to the President, 
however, determining the appropriate process and players to be 
included in making specific recommendations to the Congress for 
its consideration will be of critical importance. In this 
regard, the first Hoover Commission was arguably the most 
successful. It involved a bipartisan commission comprised of 
members of both the Executive and the legislative branch, as 
well as representatives from the private sector.
    Furthermore, even if a reorganization proposal is enacted 
into law, its successful implementation is far from assured 
based upon past history. In this regard, Congress should 
consider establishing chief operating officers in selected 
agencies to focus on planning, implementing, and integrating 
key management initiatives both within and between 
administrations.
    Importantly, recent history shows that how any 
reorganization or management-related legislative proposal is 
designed and presented to the Congress makes a big difference 
in its likely outcome. For example, last year the 
administration presented two proposals. One was the Freedom to 
Manage Act, which was very broad, asked for expedited 
consideration, placed severe limits on the ability of the 
Congress to consider the proposals or adopt amendments, was 
non-specific in nature, and it went nowhere.
    Alternatively, the Managerial Flexibility Act was very 
specific, ironically went through the normal legislative 
process, and was largely incorporated into the Department of 
Homeland Security bill.
    Nonetheless, I do believe that some reorganization 
authority is appropriate for the reasons that I talked about 
previously. It is finding that reasonable balance, and I think 
part of that has to do with not only the nature and scope of 
the legislation, but the process that is employed to make 
specific recommendations once that legislation is enacted into 
law and for consideration by the Congress.
    Finally, GAO has already restructured itself. In light of 
its new strategic plan, which was done in connection with the 
Congress, we have streamlined our organization with very 
positive results and, quite frankly, our experiences are 
positive ones that could be shared with others, which we are 
willing to do.
    In the final analysis, not only does the executive branch 
need to be restructured, but so does the legislative branch. 
But, from a practical standpoint, the executive branch must 
come first.
    Furthermore, I would respectfully suggest, Mr. Chairman, 
that the executive branch needs a Government-wide strategic 
plan and performance plan and accountability plan, which it 
does not have right now. From an intellectual standpoint, you 
need something as a basis for conducting such a reorganization. 
We had that at GAO. Ultimately I think the executive branch is 
going to need that as well.
    But in the final analysis, Mr. Chairman, we believe the 
time has come to work on reauthorizing some type of expedited 
reorganization authority to the President. We at GAO are here 
to help, and I would be happy to answer any questions that you 
may have. Thank you.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Walker follows:]
    [GRAPHIC] [TIFF OMITTED] T8502.023
    
    [GRAPHIC] [TIFF OMITTED] T8502.024
    
    [GRAPHIC] [TIFF OMITTED] T8502.025
    
    [GRAPHIC] [TIFF OMITTED] T8502.026
    
    [GRAPHIC] [TIFF OMITTED] T8502.027
    
    [GRAPHIC] [TIFF OMITTED] T8502.028
    
    [GRAPHIC] [TIFF OMITTED] T8502.029
    
    [GRAPHIC] [TIFF OMITTED] T8502.030
    
    [GRAPHIC] [TIFF OMITTED] T8502.031
    
    [GRAPHIC] [TIFF OMITTED] T8502.032
    
    [GRAPHIC] [TIFF OMITTED] T8502.033
    
    [GRAPHIC] [TIFF OMITTED] T8502.034
    
    [GRAPHIC] [TIFF OMITTED] T8502.035
    
    [GRAPHIC] [TIFF OMITTED] T8502.036
    
    [GRAPHIC] [TIFF OMITTED] T8502.037
    
    [GRAPHIC] [TIFF OMITTED] T8502.038
    
    [GRAPHIC] [TIFF OMITTED] T8502.039
    
    [GRAPHIC] [TIFF OMITTED] T8502.040
    
    [GRAPHIC] [TIFF OMITTED] T8502.041
    
    [GRAPHIC] [TIFF OMITTED] T8502.042
    
    [GRAPHIC] [TIFF OMITTED] T8502.043
    
    [GRAPHIC] [TIFF OMITTED] T8502.044
    
    Chairman Tom Davis. Let me start the questioning.
    Ms. Dorn, let me talk to you as a representative of the 
administration. I strongly support this legislation. The 
previous administration supported this, too. They could never 
get it through. Congress has been a stumbling block because it 
is perceived we give up some of our authority, what we give the 
executive branch, but this is basically a fast track for 
reorganization. That's what this legislation is.
    One of the difficulties we have--I represent a District 
with a number of Federal employees, Mrs. Davis does, and some 
other Members do--is because of the pay component that came 
forward this year, because of the reorganization authority, we 
have some employee groups who are very nervous about giving 
this administration authority to reorganize. It seems to me we 
have to put in appropriate safeguards. And the key, of course, 
is how you write these.
    I'm a strong supporter of doing this legislation or we 
wouldn't be holding this hearing, and we are going to find a 
way to try to move this through, but what kind of safeguards 
would you envision that we could put in that would protect 
employees' rights that they currently have? There is a fear 
that as you reorganize they may lose rights. There's a 
secondary fear that if you reorganize you'll lose jobs, and 
that, of course, can happen. But we can't concern ourselves 
with that. Our job here isn't to protect jobs, it is to make 
Government run more efficiently. But the people that are there, 
we don't want them to lose their rights and stuff and use this 
as a carte blanche to start changing the rules from under them. 
If we get into that, we'll never get this legislation through 
and no one will be able to. That's kind of the quandary we are 
in as we look at this.
    Any thoughts? And you can get back to us if you don't want 
to say anything now, but that's something we have got to 
address.
    Ms. Dorn. Well, Mr. Chairman, I think if you look back over 
the 2\1/2\ years now of this administration and the President's 
interest in management and in assuring that the Government 
delivers results, it has not been couched in specific budget 
savings or specific employee cuts. I think our focus has been, 
as it was in the creation of the Department of Homeland 
Security, ensuring that the Government delivers to the public 
the services and the benefits as efficiently as possible.
    We recognize that this is a significant issue for many to 
give the executive branch broad authority to propose 
legislation and have it considered. In and of itself, it 
doesn't get you anything.
    Chairman Tom Davis. That's right.
    Ms. Dorn. So I guess the----
    Chairman Tom Davis. It's a procedure.
    Ms. Dorn. It is a procedure in order to get proposals 
before the Congress and considered as in an expeditious 
fashion.
    Chairman Tom Davis. Well, let me just say this. I mean, it 
is going to be our goal as we move this through to make sure 
there are adequate protections for Federal workers and Federal 
employees. That's appropriate. This is--the idea of this is not 
to try to change the rules out from under them and change that. 
We can do that separately if we want to do that, but this 
legislation is not that tool. This will just allow you to 
organize like you did Homeland Security and work more 
efficiently, and we'd like to work with you to kind of craft 
that language.
    What this legislation really does, in my opinion, is it 
protects Congress from itself and all the many turf battles 
that we go through. Every time you try to reorganize something 
every committee wants to make sure they have their piece and 
stand up. You can't deal with that kind of inflexibility, and 
that's our goal. Do you agree with that?
    Ms. Dorn. I certainly do. We have had numerous experiences 
of trying to do this in a piecemeal fashion, and in a piecemeal 
fashion to try to achieve a very modest benefit in a particular 
area in a particular department. You fight a sometimes lengthy 
and in the end unsuccessful battle. If one person on one 
committee in one chamber of the Congress wishes to stop that, 
they can certainly hamper what would seem to the majority to be 
a very good idea.
    So if there is a way to work with the Congress in order to 
get some generic authority that would allow us to propose both 
reorganizations big and small, I think when you look at this 
broad authority it comes to you very quickly that this could be 
about the reorganization of an entire department or it could be 
as narrow as streamlining something inside of a department or 
moving a function of a department to another one.
    Chairman Tom Davis. I also envision some language in here 
where there is consultation written in here between--obviously, 
if you don't consult at the end of the day you may end up with 
eight proposals that were dumped in under the previous 
legislation and wouldn't move through. But we want to make 
everybody comfortable with this. But the concept is a very 
clear one. You've got to constantly reorganize, retool, 
reengineer your organization to get it done, and if you have to 
come to Congress and go through the committee structure that we 
have here today, it just takes forever and a day. You just 
never get it done. And the old adage there's nothing closer to 
eternal life than a Federal agency once it is created--that's 
not where we're trying to go.
    I think at the end of the day we could be a lot more 
productive, we can save money, employees' rights can be 
enhanced if we do this correctly.
    Let me ask Mr. Walker, in your testimony you said there's a 
difference between using an Executive reorganization authority 
to effect changes in policy such as eliminating Federal 
functions or activity and using the authority to improve the 
operations and management of the Federal Government, such as 
combining together offices that perform the same function. Is 
there a way to make a distinction in this legislation?
    Mr. Walker. I think there is, Mr. Chairman. I think there 
are a couple of things that I would offer for you. Depending 
upon the nature of the proposal that would be coming forth--in 
other words, is it primarily for operational efficiency or is 
it for program elimination? The first is obviously a management 
issue. It is an operational issue and clearly ought to be able 
to be considered on a fast track. On the other hand, to the 
extent that you're talking about eliminating a program, that's 
obviously a policy matter. It seems to me that you may want to 
consider differentiation between what the track would be and 
what Congress' role would be in that regard.
    The other thing that I believe is absolutely critical, Mr. 
Chairman, is, irrespective of what authority ultimately the 
Congress decides to grant to the President, should it decide to 
do so, the process and the players that will be employed in 
making specific proposals to the Congress for expedited 
consideration I believe will be of critical importance.
    The most successful model in the past was the bipartisan 
executive, legislative branch representatives with some private 
sector representation, the Hoover Commission One approach. That 
was by far the most successful, so I think we need to be 
thinking beyond just how the legislation would be structured, 
but that could be an important safeguard, as well. That could 
be an important safeguard to try to make sure that there is a 
reasonable balance and that increases the likelihood of 
ultimate enactment into law, because if you have the authority 
but you don't get anything enacted, it really doesn't make much 
difference.
    Chairman Tom Davis. That's correct. OK. Well, as I said, 
this isn't just a procedure that we think makes reorganization 
more likely. It incentivizes the executive branch to do that. 
What I've found is that when we try to decree these things from 
the legislative branch, without the cooperation from the 
executive branch it doesn't work. This is a partnership, we 
think a procedure that will hold administrations accountable 
basically for waste in Government. Instead of complaining about 
the system, then the onus moves to them to try to change it. I 
think, from our perspective, that ought to be a good thing. And 
they can propose what they want and we can vote it up or down 
and the political chips can fall where they may.
    Thank you for being here. As I said, we heard from Chairman 
Volcker and Secretary Shalala last time. There was a pretty 
good bipartisan consensus of people who had served in 
Republican and Democratic administrations that this is an 
essential tool, but the devil is always in the details. If 
you'll work with us, hopefully we can come up with something.
    I now yield to the gentleman from Maryland--we have two 
gentlemen from Maryland here. Whichever. The two gentlemen over 
there, I'll let you decide.
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    Chairman Tom Davis. Mr. Ruppersberger, thank you for being 
with us.
    Mr. Ruppersberger. First, I think your testimony was 
excellent. I agree that we need to move forward with this 
reauthorization. One question: why did it take so long to get 
to where we are now, and why did the previous--what President 
was it 20 years ago? Why was this authority taken away?
    Mr. Walker. It wasn't taken away. It had to be reauthorized 
and President Reagan did not seek reauthorization. I don't know 
why he didn't seek reauthorization, but it is something that 
existed in the law from 1932 to 1984 but had to be periodically 
reauthorized, it is my understanding it is now on the table, 
whether or not to reauthorize it.
    Mr. Ruppersberger. Well, you know, whatever party we're in, 
the President of the United States is really responsible for 
the operation of the Government, and it is important. I think 
you made the comment that the delivery of services to our 
citizens, our constituents is part of--really, most of what we 
do, whether it is military, whatever, education, whatever issue 
is there.
    I think--and I agree--well, there's only two other 
Democrats here, but I agree with Majority Leader DeLay that we 
need to move and we need to move quickly, but because we move 
quickly doesn't mean we have to do it the wrong way. I think 
that it is very important that we still maintain our check and 
balances. That's important. That's our system of government and 
it works.
    The question I have, moving as quickly as we can--because 
if we study anything too long in this body, it will just be put 
on the shelf and it is gone, and time is to act now. I think 
what really needs to be done, though--and it is an issue that I 
know that we've discussed and we've had testimony on--when 
you're talking to the employees, your employees are the front 
line and they're the ones that are executing, and it's just not 
about pay, it is about the employees motivating--management and 
leadership motivating the employees, letting the employees feel 
they are a part of the operation, they are shareholders of this 
operation.
    With that said, what do you think the oversight would be of 
Congress? If we were to move quickly, if we were able to get 
what we need to move this bill quickly, what would you see the 
role and the oversight of Congress without interfering with 
what we're trying to accomplish here?
    Ms. Dorn. Congressman, I think that the broad authority 
here would be the prelude to the actual use of this. If we got 
this kind of authority in law, the administration would then be 
empowered to start to deal with some of these issues that 
currently many managers don't have the heart and the stomach to 
take on in an individual effort. Basically, we would have to--
we would sort of move this to the top of the agenda. As we put 
forward specific plans, it would be my thought that the 
administration would be crazy not to consult with the Congress 
before those specific plans were put forward. If we got this 
authority and the first three uses of it were unsuccessful, I 
think that certainly would set us back.
    As the chairman pointed out, I think this is a partnership 
between the executive and the legislative branches to move the 
Government into the modern age. It shouldn't be used as a brash 
use of unilateral authority, in my judgment. It wouldn't be 
successful and it probably would be taken away.
    Mr. Ruppersberger. But if you don't have the guidelines, if 
you don't have the checks and balances, if, in fact, Congress 
feels that the President might be going too far as it relates 
to employees, as an example, as it relates to your workers as 
an example, I think you have to have something in writing, 
guidelines that are there, because this bill--this 
reauthorization would involve generations to come, too, and if 
it is done the right way, we're going to get where we need to 
be.
    Mr. Walker.
    Mr. Walker. I think Government needs to make more decisions 
differentiating between what is done based upon the value and 
the risk associated with a potential proposal. In this regard, 
I think that you could end up having expedited procedures that 
could differ, depending upon what the nature of the proposal 
would be. For certain types of proposals, you may have very 
fast track with, you know, limited debate and no authorized 
amendments and may not require, you know, advance--it may not 
require to go through a bipartisan and executive-legislative-
branch-comprised commission.
    For other types of things that are more substantive and 
more comprehensive and more sweeping, you may decide you want 
different timeframes or different debate times or different 
abilities to amend, but limited amendment, because I think it 
is critical that you do that, and you may want it to go through 
some type of a commission proposal.
    So I think we need to be thinking more about what are we 
trying to accomplish. One size doesn't fit all, and how can you 
establish reasonable safeguards and appropriate mechanisms to 
hopefully achieve the desired outcome, which is to get things 
enacted into law that will improve the economy, efficiency, and 
effectiveness and responsiveness of the Federal Government for 
the benefit of the American people.
    Mr. Ruppersberger. In closing, I think the Volcker 
Commission--I was very impressed with their testimony. I think 
I was impressed with the fact it was a bipartisan issue to move 
forward, taking into consideration, you know, our workers. But 
again I say this, and agree with Majority Leader DeLay--the 
time is right now. Efficiencies will benefit our constituents 
and will benefit our workers, and I would hope we can move this 
as quickly as possible.
    Chairman Tom Davis. Thank you very much.
    Mrs. Davis.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman, and thank 
you, Mr. Walker and Ms. Dorn, for being here.
    Mr. Walker, you said it several times, something that I 
firmly believe in, and that's the process is the critical, 
important part of this, I think. In my opinion, all players 
need to be brought to the table so that everybody is treated 
fairly.
    You spoke about the--I think it was the Hoover Commission 
that President Truman used in his last reorganization. Would 
you envision that's something that the administration would do 
in this case? And that may be a question for you, Ms. Dorn.
    Mr. Walker. Well, obviously, I can't speak for the 
administration since I am not part of the administration. I 
just think that it would be prudent for both this President and 
future Presidents, as well as the Congress, to learn from the 
lessons of the past. In the past, two key differences--two key 
factors have made the difference between success and failure. 
One is the nature and scope of the proposal, and second the 
process and players who are involved in making that proposal to 
the Congress. The first Hoover Commission was by far the most 
successful. I personally believe there's a lot that needs to be 
done here, some of which is low-hanging fruit but some of which 
is very substantive and very comprehensive, and I think it is 
probably going to take a commission like that in order to get 
that part done.
    Ms. Dorn. I think I would make the point that if this 
authority was in place to get proposals considered and/or some 
sort of expedited consideration in the Congress, that the 
question of what to do has been studied by I think every 
administration since the Nixon administration. I know that the 
earlier Bush administration had a task force headed up by the 
Vice President to look at potential competitive--the 
Competitiveness Council looked at potential ways to make the 
Government more competitive. The Clinton administration--again, 
Vice President Gore looked at ways to make the Government more 
efficient. We have, I think, stacks of bipartisan proposals 
that exist on how to make the Government more efficient. The 
difficulty is how to get that done.
    We have not been able to have a delivery mechanism to take 
a lot of good ideas that have been generated over the last 5, 
10, 15 years and actually get those in place.
    It may be desirable to have another look. My only concern 
is that you can have stacks of studies that, if you have no 
mechanism to turn those into action, it turns and sometimes is 
not a good use of time.
    So I think we are open to suggestions in that regard, but 
we would also probably look to this committee and other 
committees of the Congress that in their oversight have made 
lots of good suggestions about how Government could perform 
better and efficiencies that could be achieved.
    Mrs. Davis of Virginia. I agree with my chairman that the 
process we have right now, when you have to go through 30 
committees you can't get anything changed because everybody has 
their own idea. But even in saying that I would want to--as the 
chairman said, I have a lot of Federal workers in my District 
and they're good, good people and they do a good job, and most 
of the ones that I talk to, they want an efficient Government. 
They want a good reputation. They don't want to be seen as the 
cause of our inefficiencies, and I think they would be willing 
to and would want a place at the table to be able to sit down 
with you and possibly give you some suggestions of what should 
be done, and I would hope that we would take all that into 
consideration. But I agree, we do need to change the process; 
otherwise, nothing will happen.
    Mr. Chairman, I have to apologize. I have a markup in 
another committee, so I need to go. I would like to 
respectfully ask that I be able to submit questions for the 
record for the second panel.
    Chairman Tom Davis. That would be fine. Thank you very 
much.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T8502.045
    
    [GRAPHIC] [TIFF OMITTED] T8502.046
    
    [GRAPHIC] [TIFF OMITTED] T8502.047
    
    [GRAPHIC] [TIFF OMITTED] T8502.048
    
    [GRAPHIC] [TIFF OMITTED] T8502.049
    
    [GRAPHIC] [TIFF OMITTED] T8502.050
    
    [GRAPHIC] [TIFF OMITTED] T8502.051
    
    [GRAPHIC] [TIFF OMITTED] T8502.052
    
    [GRAPHIC] [TIFF OMITTED] T8502.053
    
    Chairman Tom Davis. Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, and thank you all 
for your testimony.
    Let me just say at the outset--and the chairman alluded to 
this issue--there's obviously a lot of unease among Federal 
employees with respect to handing over this kind of authority 
without the kind of oversight that we have today setting out 
this kind of fast track system, and it is aggravated in part, I 
think, because I think everyone would like to see the 
Government made more efficient, that they would like us to 
organize the Government in a way that could deliver the 
services in the best way possible. So the question is not up-
sizing or down-sizing, it's whether we want to get to the right 
size and with the right functions.
    There is concern, as the chairman mentioned, that this kind 
of authority could lead to arbitrary downsizing, and that kind 
of fear is always exacerbated when you see the type of budget 
resolution that was passed, which asked this committee, the 
Government Reform Committee, to make $38 billion cuts over the 
next 10 years, and the chairman of this committee had a major 
victory to protect the rights of Federal employees and took off 
the table, at least in part, retirement benefits.
    But if we as a committee want to get that kind of savings 
over 10 years, it could mean a drive to downsize just for the 
sake of downsizing, not for the sake of organizing the 
Government in the most efficient way. So I just want to put 
that out there as an understandable concern of lots of people, 
when you look at the budget resolution passed, the charge given 
to this committee in the context of this proposal to allow a 
fast track process.
    I want to get a hand on the scope of the problem, because 
it is true when reorganization legislation comes down here it 
gets sent to lots of committees, but I'm interested in, for 
example, this administration. How many proposals for 
reorganization do you have currently pending before the 
Congress and what is the status?
    Ms. Dorn. Congressman, I probably would have to provide the 
exact number for the record because I don't have it on the top 
of my head, but in preparation for this hearing I went back 
through the last two budgets and looked at kind of the 
highlights of what we had recommended and what had happened to 
a number of those proposals. There's a little chart in last 
year's budget that talks about, again, some pretty rational 
program changes like, for example, in Homeland Security we 
talked about moving State and local terrorism programs from 
Justice to FEMA. That actually occurred in the bigger 
transition. But there were about 10 others that ranged from 
moving C grant programs from Commerce to the National Science 
Foundation; toxic substances, hydrology programs from Interior 
to the National Science Foundation; basically moving some of 
the science programs from the different agencies to NSF, where 
I think most people would agree there's a lot of expertise.
    You know what happened to those proposals? None except for 
the Homeland Security reorganizations, which happened in the 
larger context, actually occurred, because when it came down to 
it there was some, I think, very limited resistance, but in the 
end fairly compelling.
    There weren't any--there were no personnel implications to 
those, there were no giant over-reaching policy concerns with 
those, but they just don't happen.
    I think it makes--doing these sort of one at a time in very 
small slices requires a lot of fortitude and a lot of 
perseverance. Frankly, Federal managers have a lot to do. If 
they think that there's little to no chance that it's going to 
be successful, they just don't have the time to spend on it.
    Mr. Van Hollen. Thank you.
    Ms. Dorn. I can provide the----
    Mr. Van Hollen. That would be helpful to me as a new 
Member, just to get a handle. I mean, the problem is stated 
generally in a lot of the comments. It would be nice to have 
some specifics.
    Mr. Walker, do you have any comments?
    Mr. Walker. Just to follow up very quickly. I think these 
are several examples of exactly how fast track authority can be 
helpful. When you have situations where you are identifying 
certain functions or certain activities that you're not 
proposing to eliminate, you're proposing to transfer them and 
to put them in an area where they are more mainstream with 
regard to mission and where you can integrate activities rather 
than coordinate activities, I think those are examples of 
things that, if you had fast track authority, it is much more 
likely that these proposals would come forward and that some of 
them would ultimately be enacted into law. And that would be 
one that I would say clearly makes sense.
    When you're talking about eliminating things, then you may 
want to consider still some fast track authority, but maybe 
different than what the authority would be where it is 
primarily for efficiency and synergy reasons.
    Mr. Van Hollen. So you are suggesting, just so I 
understand, suggesting maybe different standards applied to the 
kind of review that different proposals get, depending on 
whether it is just for transferring function as opposed to 
eliminating function?
    Mr. Walker. Exactly. You look at the value, look at the 
nature of the proposal, the relative value and risk, and how 
does that affect the fast track authority, the role that 
Congress plays, and what role, if any, a commission might play 
in the process.
    Mr. Van Hollen. OK. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    Have either of you read the 1983 Supreme Court decision 
that ruled this Presidential reorganization authority 
unconstitutional? I'm just wondering, was that a very narrowly 
drawn decision, or did they express--what did they express as 
the problems or the objections at that time?
    Mr. Walker. I have not read it. I have been briefed on it 
by my general counsel. My understanding, the Chadha decision 
basically stated that under the Constitution that both houses 
of Congress needed to affirmatively act in a positive manner in 
order to affirm any proposed action in this regard, rather than 
previously it's my understanding the way that it worked was it 
was presumptive unless one house of Congress basically vetoed 
it. And the Supreme Court said no, there needs to be an 
affirmative step by both houses of Congress under the 
Constitution. That's my understanding.
    Ms. Dorn. That's consistent with my understanding. I don't 
think that it pertained particularly to this reorganization 
authority, but broadly to a one-house veto.
    Mr. Duncan. This sounds like it might be a pretty good 
thing to do, but I'm wondering how either of you would respond 
to somebody who might say that there have been concerns for 
many years that the executive branch has been acquiring too 
much power at the expense of the Congress, and now Congress has 
given the President fast track trade authority, and now we're 
talking about giving fast track reorganizational authority, and 
that we might want to do this to an administration that we 
like, but we might not want to give this authority to the 
administration that we didn't like, but you're doing it anyway. 
I mean, the administration changes sometimes. So how would you 
respond to somebody who expressed that concern to you?
    Ms. Dorn. I think the Volcker Commission, which is composed 
of people of both parties, all who served at the highest levels 
of both parties--served at the highest levels of the executive 
branch when both parties were in control, supported this kind 
of authority for one very good reason, and that is that the 
state of the Federal Government is becoming a--if not a crisis, 
it is becoming a broadly recognized concern that if the Federal 
Government cannot figure out a way to cut through the stasis 
that has built up over time, that we are going to have a 
Federal Government that the people have lost confidence in, 
that is enormously expensive, and is not delivering the 
products and the services that the American people expect. I 
think it is consistent with what was recognized by the Congress 
in the area of trade--that without fast track authority on the 
trade side, that the United States was at a significant 
disadvantage to compete in the world.
    So it is not that--in my view, and I have served in both 
the legislative and the executive branches--I don't think that 
this is a continuing series of assaults on the powers of the 
legislative branch, but a recognition of the priorities that 
our country has to confront in a kind of a priority here.
    Mr. Duncan. Yes. Mr. Walker.
    Mr. Walker. Well, I work for the Congress so I am an 
Article I person, but I do believe that every President needs 
some type of authority like this, and that there is a 
compelling need, for the reasons that I articulated in my 
opening statement, that the time is right to move some 
reauthorization authority.
    I think in the final analysis you have to get comfortable 
and the Congress has to get comfortable to try to achieve the 
balance that Chairman Davis talked about--reasonable 
flexibility with adequate safeguards. And you have to be 
comfortable that when whatever you pass as far as this 
authority, that you would feel comfortable with it no matter 
who the President of the United States is and no matter what 
party they represent. You have to look at it that way. It 
shouldn't be any different because otherwise I think you might 
second guess it down the road.
    But the other thing is it has to be reauthorized. At least 
historically that has been the case. That's another way that 
you can do it to manage risk. You can set it up, since you give 
this authority and provide for periodic reauthorization, which 
was the case from 1932 to 1984.
    Mr. Duncan. Well, I can tell you I think most people think 
that the Federal Government has gotten so big and bureaucratic 
that it is just almost out of control and something needs to be 
done, but the Government keeps getting bigger almost no matter 
who is in power. So I'm a little bit skeptical as to whether 
this is going to do what we need done, but at least it seems to 
be better than doing nothing, so thank you very much.
    Chairman Tom Davis. Thank you very much.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I have to join Mr. Duncan in my skepticism. I tell you, I 
have difficulty with the concept that just after the budget 
proposes such huge cuts and throws it over to this committee 
for $1 billion in next year and $40 billion over 10 years, all 
of a sudden everybody is out here proposing now that we have 
this reorganization fast track. And I can understand people's 
concern on that, and I'm not sure that your testimonies have 
allayed that fear at all.
    I'm also concerned with the fact that this Congress has a 
responsibility to do the things that you're talking about 
having done. I suspect that we need just find the will and 
proceed with business.
    What do you say about the fact that during the last 
administration the National Performance Review with some 
duplication or whatever is purported to have eliminated over 
250 programs and agencies, and that was without the existence 
of any kind of a fast track?
    Ms. Dorn. Well, Congressman, I would say that both 
Republican and Democratic administrations wrestle with this all 
the time, and if you look at what the Clinton administration 
did in 8 years, they may well have taken this on at various 
levels and wrestled some of it to the ground. They didn't have 
the authority. You can make progress, sometimes slow, sometimes 
arduous, but you can make progress through the regular 
legislative process.
    Mr. Tierney. Well, isn't that what the regular legislative 
process is--a deliberative process where we bring in all of the 
key individuals and give them an opportunity to be heard? I 
think what bothers me is that this seems to be a step outside 
of that. I mean, this is say ingredients we don't want to make 
sure that all the key players are heard, we don't want to make 
sure that 435 people in the House and 100 in the Senate that 
represent all these constituencies actually have a voice, and 
we're going to fast track this and throw something on the table 
and have it voted on in a certain amount of time without any 
amendments, and we're out of here. I mean, it seems to me 
you're working directly opposed to the interest of people in 
this country who expect that there is going to be a concerted 
review of this and people are going to have to make some hard 
decisions and be held accountable for them.
    I'm particularly stunned by the fact that here you are with 
one party in the majority of the House, one party in the 
majority of the Senate, same party in the White House, and now 
is when you choose to say that we can't get anything done?
    Ms. Dorn. Well, Congressman----
    Mr. Tierney. I mean, this seems--if you're going to get 
something done, get it done. Go through the regular legislative 
process and see if the weight of your arguments has enough 
merit to pass.
    I suspect what it is is in theory getting rid of billions 
of dollars so you can give tax breaks to people is one really 
good idea to some people, but when it starts identifying where 
that money is coming from, our conviction and our will may fade 
away a little bit. And that's just one person's review of this, 
but it seems somewhat obvious from this perspective.
    Ms. Dorn. For the record, the Bush administration did 
propose that this authority be extended not 2 months ago in 
February when the 2004 budget was proposed, but a year ago last 
February.
    Mr. Tierney. When the 2001 cuts were proposed so----
    Ms. Dorn. Well, I think----
    Mr. Tierney [continuing]. Cuts.
    Ms. Dorn [continuing]. The point is that the Bush 
administration has had a commitment to management reform that I 
think is serious and that is manifest both in this and----
    Mr. Tierney. So if that's the case, my question to you 
would be then, with a majority in the House and majority in the 
Senate and the White House, if you think your ideas are so good 
why don't you present them and let them go through the regular 
legislative process and we'll see if they carry the weight of 
day.
    Ms. Dorn. And we have, and we will continue to propose 
changes through the regular process until the process is 
changed. The only point that I would make is that it is 
difficult, it is sometimes not productive, and, as I said----
    Mr. Tierney. Well, let me interrupt you only because we 
have a short time. I don't mean to be rude. But ``not 
productive'' I think as you're defining it is you don't always 
get your way. That doesn't mean it's not productive. It means 
that you made a proposal, it went through the regular 
legislative process, and it didn't win the argument. I mean, I 
think that when that happens the idea to say, ``Well, we're 
going to change the system so we can jam things through,'' 
isn't necessarily the best way for everybody to be looking at 
this thing.
    You have all the majorities. You have the White House. You 
think you have great ideas. Float them, you know. But why take 
away the prerogative of this body, whose responsibility it is 
to look at these things, to deliberate, and hear testimony from 
all the interested parties who have a stake in this, and then 
make some decisions? I think the American people are smart 
enough, if this body doesn't have the will to proceed the way 
they want it to, they'll take whatever action they think is 
appropriate. But I think the only message I have here is that 
it seems to me that this is an end run. If we can't get things 
done one way, we're going to try to jam it through another way 
by changing the process, and an invitation to some Members of 
Congress to avoid the responsibility of making difficult 
decisions.
    I yield back the balance of my time.
    Chairman Tom Davis. First of all, let me just say I like 
the point when you said one party controls the Presidency and 
the House. I'd like you to keep saying that. It has been 50 
years since we've had that opportunity.
    The other thing is that some of the fights aren't partisan 
fights, they are jurisdictional fights. That's what makes any 
of this really difficult to organize that we're trying to get 
to. But I think the comments from the gentleman, I think we're 
going to hear a lot of skepticism in terms of what the 
motivation is back and forth, and these are real issues that we 
are going to have to address as we move this legislation 
forward. So I appreciate your comments. And it's a bigger issue 
than just a partisan issue, but----
    Mr. Tierney. Well, it goes beyond the partisan issue, Mr. 
Chairman, and is more important than the partisan issue. The 
only reason I raise the partisan issue is if you've got the 
majorities, then put your proposals out there and let them fly. 
This is a uniquely extraordinarily time for you to be making 
this proposal when you have all the chips. But the other part 
of it I think is one of the prerogatives of this house.
    Chairman Tom Davis. Yes.
    Mr. Tierney. You know, this is our responsibility. Why we 
are trying to find some way to pass the buck just escapes me.
    Chairman Tom Davis. Because I think we recognize our own 
limitations. But I hear you.
    Mr. Tierney. Well, shame on us.
    Mr. Walker. Mr. Chairman, if I can, as you know, 
Congressman, the GAO has a reputation of being professional, 
objective, and nonpartisan. I can tell you, in my opinion as 
Comptroller General of the United States, irrespective of who 
the President is, whether a Democrat, a Republican, and no 
matter what their name is, there is conceptual merit to having 
some type of expedited reorganization authority, but I think--
--
    Mr. Tierney. But even you in your testimony made it very 
clear that you think that there has to be some provision made 
for people----
    Mr. Walker. Absolutely. Absolutely. And let me state that. 
I think you need to look at the value and risk, the nature of 
the proposal. You need to have adequate safeguards. And there 
are ways I think that this could be accomplished where you have 
a reasonable balance of interest between the executive branch 
and the legislative branch, but I think some type of expedited 
authority is clearly called for, irrespective of who the 
President of the United States is and irrespective of who 
controls the Senate and House of Representatives.
    Chairman Tom Davis. Thank you. And, of course, you need 60 
votes in the Senate, so nobody controls--no party controls the 
Senate. One party presides over the Senate. There is a whole 
different issue.
    Mrs. Miller, thank you for bearing with us. You are 
recognized for 5 minutes.
    Mrs. Miller. Thank you, Mr. Chairman. I've enjoyed the 
testimony certainly and the conversation from my colleagues, as 
well. And I would agree that this is certainly a tool that the 
President needs. In fact, as a new Member of Congress, quite 
frankly, learning a little bit more about the Federal 
Government, I have to say I'm completely astounded that the 
President does not have the same types of management tools that 
every Governor in the Nation, whether they are a Democrat or a 
Republican, and most county executives have, as well. 
Certainly, there are two Members on this panel, including our 
chairman, who have had those kinds of experiences previously in 
their former lives where they have had those kind of management 
tools. Nor do I believe the concept of seamless government, of 
customer service, of delivering a cost-effective, efficient 
government is a partisan concept, and it certainly should not 
be a novel concept for the Federal Government, as well. So I do 
strongly support this legislation. I think the President, 
whoever the President is, is in a position of appointing 
Cabinet officers, members, and then not again having the 
resources or the tools to do what needs to be done. I think the 
citizens certainly are looking to the Federal Government to 
deliver better services.
    The current structure seems to me to certainly stifle 
creativity amongst some excellent Federal employees who, as one 
of my colleagues mentioned a little bit earlier, would like to 
have some input. I mean, these are people who are on the front 
line every single day and just are in the trenches, so to 
speak, certainly would have some excellent recommendations, I'm 
sure.
    And perhaps my question has already been answered. Ms. 
Dorn, you were mentioning a little bit previously that you have 
stacks and stacks of previous recommendations about what could 
happen here, but could you perhaps give me a specific example 
of where this administration may go first if this kind of 
legislation were to be delivered?
    Ms. Dorn. We've made a number of proposals in the regular 
submission of our budgets in 2002, 2003, and 2004 that speak to 
need for reorganization of certain elements of the Government. 
They range from fairly small things. Governor Thompson over at 
HHS has had an ongoing effort to try to streamline various 
entities within the HHS empire. They have 65,000 employees, and 
when he arrived they had multiple personnel shops, multiple 
public affairs shops, all of whom were sort of operating 
independently and without coordination or any kind of 
efficiency. He has made an effort to try--he started with the 
personnel shops and has rationalized those. He's working his 
way through the public affairs shops. But it is an attempt to 
again make people's work more valuable, make people's time more 
useful.
    There are other examples that are great in the area of 
Homeland Security where we have gone through the traditional 
process at a very high level, great amount of consultation with 
the Congress to get the Department of Homeland Security set up. 
And I would point out that the creation of the Department of 
Homeland Security is not the last word. The Congress did do 
what the Volcker Commission suggested. They rationalized their 
committee structure. The oversight for DHHS is still going to 
be, I suspect, fulsome. Nobody expects to reorganize Government 
and then have Congress give up its oversight authority and its 
power over the purse and all the other tools that the 
Constitution and 200 years of statutory law give them. But we 
have a number of proposals which I think we're very 
aggressively pursuing.
    It is a question of how much you really can expect to 
accomplish, how much time you invest in this area of management 
of the Federal Government, knowing what the cost is and what 
the chances are that you might succeed.
    Mrs. Miller. Thank you, and I appreciate your example of 
Secretary previously Governor Thompson. He has certainly been a 
role model nationally and a leading edge in so many different 
kinds of things--welfare to work, economic development, etc. 
And then for a Governor, who is used to having Executive order 
privileges, to be able to reorganize and delivered excellent 
services in the State of Wisconsin to come to the Federal 
Government and be so hamstrung has certainly got to be very 
frustrating for him and for his entire agency, as well.
    Thank you so much.
    Ms. Dorn. Yes.
    Chairman Tom Davis. Thank you very much.
    Let me get Mr. Shays.
    Mr. Shays. Since this is my first pass, I want to 
congratulate the chairman for doing what this committee clearly 
needs to be doing, and that is to deal with the management 
challenges that face any President, any chief executive, 
Republican or Democrat.
    I plead ignorance to the fact that I did not know that we 
have not given the President the reauthorization since 1984.
    Let me ask you, Mr. Walker, what is the significance of 
this in terms of dollars. What could a President do with this 
kind of power that would impact dollars?
    Mr. Walker. Well, there's no question that, depending upon 
the nature of what the proposals would be, that there could be 
significant economy, efficiency and effectiveness, improvements 
achieved as a result of making reorganizations happen that 
otherwise might not happen.
    To put a number on it is virtually impossible because I 
have no idea exactly what the administration is going to 
propose and I also don't know what the Congress is going to 
choose to pass or to authorize in that regard, but it is 
considerable.
    Mr. Shays. It is considerable. The GAO has--I could have 
big stacks of reports at GAO that have recommended changes to 
Government and so on that would be accomplished by simply 
giving the President this power?
    Mr. Walker. There is no question that there would be a much 
greater likelihood that they would be accomplished if some type 
of expedited consideration was given.
    Mr. Shays. Ms. Dorn, do you care to respond?
    Ms. Dorn. Well, Congressman, before you came in I think 
that I--in looking back over the last 2 years of the Bush 
administration, this administration and this President, in 
particular, has been very interested in the management side of 
the Government, and we've spent a lot of time putting forward a 
management agenda and pushing through a number of performance 
and budget integration initiatives. They haven't been aimed 
necessarily at either reducing the numbers of Federal employees 
or in harvesting dollars out of it. Obviously, there are some 
things that could be achieved in that regard. That hasn't been 
the primary motivation.
    The primary motivation is actually to get more value out of 
the people and the agencies of Government than we're getting 
right now.
    Mr. Shays. And I'm trying to get this report that I 
remember reading, but there was a comparison between the 
Federal Government and the private sector, and the Federal 
Government--there were 11 Government employees that had a say 
in a decision whereas in the private sector--who could make a 
decision. They all had to sign off, and they all had to sign 
off in order for it to happen, and in the private sector there 
were three.
    The point that was being made in the report is that we need 
to empower Federal employees to be able to make decisions, to 
be able to do the same that we would do in the private sector, 
and tremendous efficiencies would happen.
    The argument in this report was that workers' satisfaction 
would climb significantly because they would have a role in the 
process of making decisions.
    Mr. Walker.
    Mr. Walker. Mr. Chairman, effectuating a reorganization 
does not in and of itself mean that there is going to be a loss 
of jobs. There could be some circumstances where that would 
occur, but let me just mention, as I mentioned in my testimony, 
the GAO has already done this. GAO created a strategic plan. We 
realigned our organization based upon that strategic plan. We 
have not conducted any RIFs. We've made tremendous progress on 
succession planning and revitalizing our work force, and our 
results have almost doubled in 4 years.
    Mr. Shays. So your output increased, your employees have 
greater satisfaction because they are involved in something 
more productive, and we got a lot more bang for the dollar that 
we spent?
    Mr. Walker. Right, but it is more than just the 
organization. It is empowering employees and doing a bunch of 
other things. I mean, all too frequently people see Federal 
workers as part of the problem. They are part of the solution 
here. Federal workers are part of the solution as to how to 
make us more economical, efficient, and effective, and we need 
to treat them that way.
    Mr. Shays. And there's nothing that says in reorganization 
that Federal employees wouldn't be part of the process of how 
you reorganize in any decision made by a President.
    Mr. Walker. It would be prudent to somehow get their input.
    Mr. Shays. Thank you very much, Mr. Chairman.
    Chairman Tom Davis. Yes. Mr. Ruppersberger.
    Mr. Ruppersberger. First, thank you, Mr. Chairman.
    I'm listening to the testimony and we're attempting to try 
to get efficiencies, and this is important that we move forward 
with this, and I think we should do it, as I said before, right 
away.
    I think what a lot of the problems are--and if we could 
resolve this issue-is the issue of the perception of our 
Federal employees. You know, we have a Republican President and 
both houses control, and Congressman Tierney raised that issue. 
I, as a former county executive, I went through this 
reorganization, and at first I didn't have the confidence of 
our county employees. Eventually, after working with our 
administration, after seeing that efficiencies in the end were 
in the best interest of the employees, that eventually the 
programs that were put in place, like a gain-sharing program, a 
group incentive based on performance, and seeing in the end 
that efficiencies bring more money in the end to give back to 
the employees, then the confidence level started to occur.
    I think most Government employees probably at this point, 
when they hear this type of exercise and what we are looking 
at, think that it is a downsizing issue. That was something I 
had to overcome. It wasn't about downsizing at all. In fact, 
really there was no downsizing other than through attrition. 
There is a lot of things that happen in all governments, a lot 
of duplication of effort, a lot of wasted money, a lot of 
wasted performance, and that's where we're trying to get to.
    But I asked the question, and I think it is going to have 
to be answered in more specificity. We need to make sure that 
Congress does retain its check and balance. That would be part 
of a process. It shouldn't be interfering with what is 
happening. Whether you're a Democrat or Republican, the 
President is so-called the ``president of the corporation,'' 
and I see Congress as the board of directors, but we are the 
check and balance and we must have input, and that's why we 
will be there to look after the employees' issues, try to make 
sure that we are holding people accountable for performance, 
including the President.
    So I think, Mr. Chairman, that credibility started with you 
when you were told that you had to downsize or you had to cut a 
certain amount of money and you did not, so I think if we look 
at this from a bipartisan point of view, our employees have to 
be a part of the process, and if we can let it be known--again, 
leadership has to do this--that it's not a downsizing exercise, 
it is an efficiency exercise which in the end will benefit all 
employees and all citizens of this country.
    Mr. Walker. I think it is important to note that the 
Congress has recently provided the executive branch with 
significant authorities dealing with voluntary early outs and 
voluntary buyouts, which would be an incredibly valuable tool 
that could be used by the executive branch in order to 
effectuate and implement any related reorganizations that 
Congress might approve. We've used those authorities. Congress, 
fortunately, gave us those authorities in the year 2000. We 
were kind of the beta, the test, if you will, for this concept, 
and it helped us tremendously to implement our strategic plan, 
to realign without any RIFs.
    Mr. Ruppersberger. That's one other point, and I'll stop. 
It's also the issue of privatization, too. And I have found 
that if you give the employees the resources to do the job, 
they will be able to compete with the outside sector if you 
give them the resources and the leadership where they need to 
move, so that's another thing that we must look at in this 
whole process is the issue of out-sourcing.
    Chairman Tom Davis. Thank you, Mr. Ruppersberger. I think 
you are going to be a great member of the committee. I 
appreciate your interest and your questions. I think he has hit 
kind of the nub of the matter as we deal with this.
    Any other questions for this panel?
    [No response.]
    Chairman Tom Davis. If not, I will excuse you.
    Nancy, congratulations on your new assignment. I understand 
you are leaving OMB. We've enjoyed working with you.
    Mr. Walker, thank you, as always, for being up here. We 
look forward to your continued input on this and a number of 
other issues.
    Ms. Dorn. Thank you.
    Chairman Tom Davis. We have a couple of votes on the House 
floor. I'm going to basically recess the meeting right now. 
We'll come back right after those votes and go with our next 
panel, but I suspect it will be at least 15 minutes, so if you 
want to take a break and wander around, get back in about 15 
minutes. Thank you very much.
    [Recess.]
    Chairman Tom Davis. Our second panel is here. We have Mr. 
Dwight Ink, president emeritus of the Institute of Public 
Administration; Dr. Paul Light, director of the Center for 
Public Service at Brookings; Colleen Kelley, president of the 
National Treasury Employees Union; and Mark Roth, general 
counsel of the American Federation of Government Employees.
    As you know, it is the policy of this committee to swear 
all witnesses, if you would just rise with me and raise your 
right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much. We'll proceed. Mr. 
Ink, we'll start with you and just work straight down the line. 
Thank you for being with us.

  STATEMENTS OF DWIGHT INK, PRESIDENT EMERITUS, INSTITUTE OF 
  PUBLIC ADMINISTRATION; PAUL C. LIGHT, DIRECTOR, CENTER FOR 
 PUBLIC SERVICE, THE BROOKINGS INSTITUTION; COLLEEN M. KELLEY, 
PRESIDENT, NATIONAL TREASURY EMPLOYEES UNION; AND MARK D. ROTH, 
  GENERAL COUNSEL, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Ink. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify at these hearings on Government 
reorganization. I am pleased that the management agenda of 
President Bush does include a request that the Congress restore 
Presidential authority for submitting reorganization plans, a 
step that I think can be of help in managing the Federal 
Government.
    I am a fellow of the National Academy of Public 
Administration, a member of its standing panel of Executive 
Organization Management, but my testimony today reflects my 
personal views and not necessarily those of the Academy. These 
comments grow out of management experience in a number of 
Federal agencies, including my role as Assistant Director for 
executive management in both VOB and OMB, where I had 
responsibility for Presidential reorganization plans. In that 
role I and my staff handled seven plans, each of which resulted 
in significant reorganizations, including the establishment of 
OMB and EPA.
    I concur fully with your statement about the amount of 
overlapping and duplicative programs. Not only is this 
wasteful, but it creates problems for the people and 
organizations served by these programs. Splintering of 
functions also blurs accountability because responsibilities 
are diffused among several different departments, none of which 
can be held accountable for more than a portion of a given 
function.
    Accountability is further blurred because of structural 
fragmentation resulting and issues gravitating to the White 
House that do not warrant Presidential attention. There they 
either clutter the President's desk and steal time that should 
be devoted to more critical issues or they are handled by White 
House staff. These staff members are usually very bright 
people, but they seldom have the needed in-depth background on 
all these issues or ready access to the needed expertise 
available in the departments. Further, they are not as 
accountable to the public or to the Congress as department 
officials. Restoration of Presidential reorganization authority 
if properly used could be a useful tool in reducing the problem 
of structural fragmentation.
    My experience with these plans dates back to a period when 
the process was reasonably straightforward. Since then, of 
course, the Chadha Supreme Court case has prevented use of the 
earlier method by which reorganization plans would become 
effective unless disapproved by Congress, but I do not believe 
the scope of what can be accomplished under reorganization plan 
authority was reduced by that decision.
    At the same time, the authority did accumulate barnacles, 
and I would agree that it is best to simplify the law and the 
process of reauthorization.
    I support the concept of restoring reorganization plan 
authority if it provides assurance that a vote will be taken 
after a specified period of time and if the authority limits or 
precludes amendments.
    I would add, however, that passing the legislation will not 
necessarily accomplish anything unless other steps are also 
taken.
    First, within the Executive Office of the President there 
is a need to restore a measure of professional competence in 
the field of departmental and inter-departmental organization 
to assure good drafting of reorganization proposals and 
effective implementation. This expertise has been missing for a 
number of years. By 1981 the GAO criticism of reorganization 
plan implementation led Congress to require that detailed 
implementation plans accompany each proposed reorganization in 
an effort to compensate for this lack of executive branch 
performance, and the problem continues.
    Time after time we see departmental and agency 
organizations and reorganizations that muddle rather than 
clarify headquarters, field arrangements. Working arrangements 
among various field offices concerned with the same clients are 
often ad hoc and transitory. The relationship between the 
Secretary's office and the major operating elements of a 
department is seldom well thought through and is surprisingly 
ineptly managed in many departments today.
    Departmental management leadership is fragmented by a 
series of laws, a deficiency President Bush has sought to avoid 
in the new Department of Homeland Security through the Under 
Secretary of Management, a highly desirable feature.
    These and other issues can best be addressed by men and 
women with experience and expertise in organizing and managing 
large organizations, not by legal or budget experts, as is the 
case today.
    A second ingredient for success with the reorganization 
plans is the need for cooperative working arrangements between 
the executive and legislative branches. Meaningful consultation 
with the relevant committees before sending a reorganization 
plan to Congress has been essential to the success of most 
Presidential reorganization plans.
    Mr. Chairman, I would argue that the reason this authority 
has been permitted to expire in the past has often been due 
largely to the lack of executive branch consultation with the 
Congress before the plans go up. This is a very, very 
important, and I think essential feature.
    And to be effective--and I think Mr. Walker alluded to 
this--executive branch consultation requires a maximum of 
bipartisanship on the part of the committees.
    In response to several of the questions that have been 
raised, I believe that it is important that reorganization 
plans not be used or permitted to be used to add or reduce or 
eliminate programs. These plans should be focused on how to 
make Government work better and not what Government does.
    I think there do need to be protections for employees. In 
each of the plans that we set forward, all of which succeeded, 
we had a statement and a commitment, and I'll read one of them. 
``All movements of functions and jobs will be governed by 
current law and Civil Service Commission--'' this was when we 
still had the Civil Service Commission--``regulations with full 
employee protections and appeal rights. From an other 
standpoint, the reorganization can--'' well, that's not 
relevant.
    But one other statement. ``Full consideration is also given 
to avoiding adverse impact of reorganization on the existence 
of Union recognition and agreements.''
    There have been questions about why you can't do this 
through regular legislation, which is certainly a valid 
question. When we were concerned about getting some kind of an 
organization in place to deal with the environmental protection 
problems, we couldn't get anywhere through regular legislation. 
There were just too many competing factions. The Congress was 
very pleased when we then came forward with a reorganization 
plan, and that's what resulted in the existence of the EPA 
today. Same thing was true of the Consumer Product Protection 
Commission.
    Chairman Tom Davis. Mr. Ink, your red light has been on, if 
you can try to--we have your whole statements in the record, if 
you could try to----
    Mr. Ink. All right. Then let me just say, in addition to 
the restoring of reorganization plan authority, it is very 
important I think to view with great care the Volcker 
Commission recommendations that the Federal Government be 
reorganized in a limited number of mission-oriented 
departments, and that you would not handle through a 
reorganization plan authority.
    Chairman Tom Davis. OK. Thank you very much.
    [The prepared statement of Mr. Ink follows:]
    [GRAPHIC] [TIFF OMITTED] T8502.054
    
    [GRAPHIC] [TIFF OMITTED] T8502.055
    
    [GRAPHIC] [TIFF OMITTED] T8502.056
    
    [GRAPHIC] [TIFF OMITTED] T8502.057
    
    Chairman Tom Davis. Dr. Light, thank you for being with us.
    Mr. Light. Thank you very much for having me. I commend you 
and the committee for its work on this issue on both sides of 
the recruitment crisis, both how we get workers into Government 
and how we give them meaningful work that will keep them around 
for a while.
    I commend to you the research report written by my 
colleague at CRS that summarizes the history of reorganization. 
It is a terrific report. There's nobody in America who knows 
more about reorganization.
    I raised two questions in my testimony, the first being 
whether reorganization is a useful approach to solving some of 
the problems today. Simply asked, if reorganization is the 
answer, what is the question? I think there is a very strong 
defense to be made here for reorganization as one of the ways 
of improving Government performance.
    Let me note, in response to some of the testimony that I 
have read, that reorganization is not a tool for downsizing. 
The term ``reorganization'' is not in any thesaurus that I know 
alongside ``downsizing.'' In fact, my hope would be that 
reorganization authority would produce significant de-layering 
at the upper and middle levels of the Federal hierarchy that 
would allow resources to flow down toward the lower levels 
where the services get delivered.
    A one-third cut in the number of Presidential appointees 
would score $100 million in savings for this committee on a 
yearly basis. A one-third cut in the number of Federal managers 
would score another $2.8 billion, more or less. If you're 
looking for dollar savings, the savings are to be found at the 
middle and upper levels of the hierarchy, not at the bottom.
    But the real value of reorganization is through its impact 
on performance. I have compared the Federal organization chart 
to the mouth of the Elongabora River at low tide as it 
struggled to confront Humphrey Bogart in ``The African Queen.'' 
It is a mess. It's a nightmare of duplication and overlap. It 
hampers Federal employees' ability to get their jobs done. It 
undermines mission. It is time to do something about it.
    You can do something about it through commission. In 1988, 
under the Department of Veterans Affairs Act, the Senate and 
the House, both held by Democrats at that point in time, passed 
legislation creating a National Commission on Government 
Restructuring that was actually rejected by the first President 
Bush as being too intrusive and not particularly helpful to his 
management agenda at that point in time.
    I would say that the reinventing government campaign did 
include restoration of reorganization as one of their top 
priorities, but they could not get that through Congress at 
that point in time.
    My testimony contains a strong endorsement of 
reorganization authority properly limited so that Congress has 
the opportunity to weigh in on difficult issues, so that 
Congress can restrain their reorganization authority to a fixed 
point in time. We're not talking here, I think, and the Volcker 
Commission I do not believe favored the creation of permanent 
reorganization authority but rather limited reorganization 
authority that could be used to clean up the very significant 
problems in the Federal organizational hierarchy.
    Now, on the Constitutional questions, I agree with my 
colleagues that there is a proper and important role that the 
U.S. Congress plays in reorganization. I am an Article I 
person, as well. My service has all been on Capitol Hill, both 
for the House and the Senate, but the founding fathers did not 
intend the legislative process to be a nightmare of endless 
delay. That's why they gave Congress authority to create extra 
Constitutional devices such as the Conference Committee to 
speed the legislative process.
    I remind the committee of Alexander Hamilton's statement 
that a government ill executed, whatever it may be in theory, 
is a bad government. To the extent that we do not improve and 
address the significant problems in the organization of the 
Federal Government, we will continue to diffuse accountability, 
we will continue to undermine performance, and ultimately we 
will continue to erode the public's confidence in the Federal 
Government's ability to perform.
    I'm open for any questions that you may have.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Light follows:]
    [GRAPHIC] [TIFF OMITTED] T8502.058
    
    [GRAPHIC] [TIFF OMITTED] T8502.059
    
    [GRAPHIC] [TIFF OMITTED] T8502.060
    
    [GRAPHIC] [TIFF OMITTED] T8502.061
    
    [GRAPHIC] [TIFF OMITTED] T8502.062
    
    Chairman Tom Davis. Ms. Kelley, thanks for being with us.
    Ms. Kelley. Thank you. Good afternoon, Chairman Davis, 
members of the committee. As the national president of NTEU, I 
appreciate the opportunity to be here on behalf of the 150,000 
employees. Thank you. It is my pleasure to be here on behalf of 
the 150,000 employees in 29 agencies who are represented by 
NTEU.
    The issue for today's hearing is what authority the 
President should have to reorganize the Federal Government. The 
question here goes to the fundamental basis of our Government. 
The founding fathers of our Nation developed a Constitution 
with careful checks and balances among the powers and 
authorities of the various branches of the Government. It is 
something not to be lightly changed or put out of balance.
    The President, as Chief Executive, has wide and broad 
authority over the executive branch. He appoints key personnel. 
He directs the policy and the functions of executive branch 
agencies. By Exhibit order he can direct inter-agency 
collaboration and set certain personnel policies.
    Our American system of checks and balances exists to 
restrain one branch from seeking to centralize power at the 
expense of the others. With each branch dependent on the others 
in various ways, the system encourages cooperation and 
accommodation, frequently by negotiation, by bargaining, and by 
compromise. Congressional action is required to create 
executive branch departments, to fund them, to determine their 
nature and the scope of their duties, and to confirm the 
appointment of their top leaders. One would hope that Congress 
would not lightly give away these rightful prerogatives.
    Fast track style schemes eliminate all opportunities for 
meaningful dialog and review by Congress. Moreover, it is the 
legislative process where the public is able to comment. You 
have called me and the other witnesses here today this morning, 
I assume because you and your colleagues see congressional 
hearings and the questioning of witnesses, including 
administrative witnesses, as something that is worthwhile and 
beneficial. Reorganization plans presented to Congress that are 
fully developed and unamendable leave no room for input from 
the public.
    Many parties are affected by reorganizations--agency 
managers, front line employees, customers of the agency, 
entities regulated by the agency. None of these has the right 
to expect their own particular interest should obstruct a wise 
and needed reorganization, but none of these communities should 
be denied the opportunity to have their legitimate input into 
the dialog and discussion that develop such a proposal.
    My own Union's recent experience with the Homeland Security 
legislation confirms my opposition to this proposal. There were 
important and positive changes made to the Homeland Security 
legislation as it moved through Congress, and some of those 
changes were authored by you, Mr. Chairman. Would the people 
really have been better served if a massive reorganization like 
Homeland Security was unamendable?
    The President's original proposal did not contain 
whistleblower protection for employees. It did not require 
merit principles. It did not ensure that non-Homeland defense 
functions of merged agencies would be maintained. While NTEU 
did not support all of the changes made to the legislation, it 
would be shocking if such a monumental reorganization would be 
unamendable subject only to a single up or down vote by each 
house of Congress.
    And while I understand, Mr. Chairman, that you and I may 
have some different views on the process that developed the 
Department of Homeland Security legislation, I think that the 
Homeland Security legislation is an example of Congress being 
able to produce change when it feels it is important. However, 
NTEU can only oppose any legislation that would have prevented 
important employee rights such as whistleblower protection, 
collective bargaining rights, and employment based on merit 
principles rather than on favoritism from being added to the 
Homeland Security legislation or to any future reorganization 
proposal.
    Some have proposed giving the President this authority as a 
way to achieve the spending cuts assigned to this committee by 
the House-passed budget resolution. That resolution calls for 
$1.1 billion in 2004 and nearly $40 billion over 10 years to be 
cut from programs under this committee's jurisdiction to pay 
for hundreds of millions of dollars in tax reductions for 
wealthy dividend holders and others. Federal employees should 
not be made to sacrifice their health care or their retirement 
security to finance tax cuts for the wealthy, nor should agency 
budgets already cut to the bone be used for this purpose. 
Asking this committee such obligations will mean that Federal 
workers will end up financing these tax giveaways to high-
income persons. This is wrong and NTEU strongly objects to it.
    Chairman Davis, as always I appreciate the opportunity to 
testify before you and will be happy to answer any questions 
you or the committee might have.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Ms. Kelley follows:]
    [GRAPHIC] [TIFF OMITTED] T8502.063
    
    [GRAPHIC] [TIFF OMITTED] T8502.064
    
    [GRAPHIC] [TIFF OMITTED] T8502.065
    
    [GRAPHIC] [TIFF OMITTED] T8502.066
    
    [GRAPHIC] [TIFF OMITTED] T8502.067
    
    Chairman Tom Davis. Mr. Roth, thanks for being with us.
    Mr. Roth. Mr. Chairman and members of the committee, on 
behalf of the American Federation of Government Employees, 
which represents 600,000 Federal workers, I thank you for the 
opportunity to testify today on efforts to provide the 
executive branch expanded authority to downsize, consolidate, 
or reorganize the Federal Government. I note for Professor 
Light's acknowledgement, the current 901 does say ``abolition 
of functions,'' so it is not just transfers or consolidations.
    AFGE strongly opposes an expansion of this authority 
because the traditional legislative process already allows 
lawmakers and policymakers sufficient opportunities to downsize 
the Federal Government. Moreover, allowing the executive branch 
expanded authority to downsize would deprive the legislative 
branch of its crucial obligation to carefully scrutinize any 
downsizing proposals.
    The expanded downsizing authority contemplated in 5 U.S. 
Code 901 essentially allows officials of the executive branch 
to submit proposals to consolidate and abolish agencies and 
functions they believe ``may not be necessary for the efficient 
conduct of the Government.'' The proposals are automatically 
introduced as resolutions and referred to the House Government 
Reform and Senate Governmental Affairs Committees. Failure of a 
committee to report a resolution within 75 days automatically 
places a resolution on the calendar. Any Member may move to 
proceed to consideration of the resolution. That motion may not 
be debated, postponed, or reconsidered. Debate is limited to no 
more than 10 hours. A motion to limit debate is in order and 
not debatable; however, a motion to postpone, proceed to other 
business, recommit, or reconsider is not in order. Moreover, 
the resolution cannot be amended.
    In the area of the Department of Homeland Security, this 
would have been, in my opinion, unthinkable. In effect, the 
process is a total abrogation by Congress of its role to 
carefully design and monitor the functionality of the executive 
branch. It is ironic that the renewed interest in expanding the 
executive branch's authority to downsize the Federal 
Government, at the expense of the legislative branch 
responsibility to carefully review and scrutinize such 
proposals, should be the subject of renewed interest at a time 
when one party controls the House of Representatives, the 
Senate, and the White House, and it is no longer possible to 
contend that the dreaded gridlock of partisanship prevents fair 
consideration of truly meritorious downsizing measures.
    If agency X is clearly performing a function that agency Y 
is also performing and agency X is not performing it in a 
supplementary or complementary fashion, why is there a need for 
expanded downsizing authority? Lawmakers and their allies in 
the executive branch who believe that agency X is clearly 
superfluous should hold hearings, introduce the necessary 
abolition legislation, make common cause with similarly minded 
authorizers and appropriators, and simply get on with their 
work. In fact, such downsizing proposals, if they are as 
meritorious as advertised, could even be passed in the House 
under suspension.
    If downsizing proposals have merit, why do they need to be 
placed on an accelerated fast track that guarantees them floor 
time regardless of their content? Why must debate on downsizing 
proposals be limited through onerous time constraints? And why 
is it that the downsizing proposals cannot even be amended? 
There is, in our view, no valid rationale.
    Interestingly, the Heritage Foundation and the Clinton 
administration--not two natural allies, I might point out--
agree that during the 104th Congress, which was a particularly 
partisan period of our Nation's history, at least 250 separate 
progress, offices, agencies, projects, and divisions were 
eliminated completely either through legislation or 
administrative fiat. It must be acknowledged that these 
documented efforts were completed through the traditional 
legislative or administrative process and not as a result of 
expanded authority. If the divided 104th Congress and the 
Clinton administration could downsize the Federal Government, 
what is stopping the united 108th Congress and the hard-
charging Bush administration from enacting into law rational 
downsizing proposals through the customary legislative process? 
The answer is nothing.
    The traditional legislative process fosters deliberation, 
close scrutiny, and compromise. These are good things.
    Just several additional points in closing.
    Federal employees and their unions know all too well how 
easy it is already to downsize the Federal Government without 
resorting to expanded authority. The Federal work force has 
already been arbitrarily hacked and whacked unilaterally by the 
executive branch by hundreds of thousands of employees since 
1993. The result of this indiscriminate downsizing is a self-
inflicted human capital crisis, with agencies experiencing 
severe shortages of Federal employees in key occupational 
category after category.
    This proposal you are considering would simply ensure even 
less deliberation and compromise and more inappropriate 
politicization of Government.
    In addition, in the last decade or so massive 
reorganizations and streamlining of Government has occurred and 
is still occurring through the natural processes. Through 
legislation, the Social Security Administration became an 
independent agency and the IRS was transformed. Parts of 22 
agencies just recently were consolidated into the Department of 
Homeland Security. And, Chairman Davis, it may not have been a 
pretty or easy process, but needed compromises were arrived at 
and a better product ultimately was achieved.
    Through administrative action since the 1990's, 78,000 
duplicative management positions were eliminated, 2,000 
obsolete field offices were closed, and over 200 programs and 
agencies like the Tea Tasters Board and mohair subsidies were 
eliminated. In Department of Defense, on its own initiative, 
the Defense Logistics Agency consolidated all service logistics 
functions, reduced to two regions, and went from 90,000 
employees to 40,000. DOD consolidated and streamlined finance 
functions into DFAS, commissary functions into DECA, and 
printing functions into DPS, all without legislation.
    Chairman Tom Davis. Mr. Roth, your total statement is in 
the record.
    Mr. Roth. OK. Let me just say that massive streamlining is 
going on today as we speak. AFGE has partnered in those 
proposals that are rational. And, as always, we stand ready to 
work with you, Mr. Chairman, on a variety of measures that 
would result in savings for taxpayers, including the 
reestablishment of labor/management partnerships, and improved 
administration of service contracts.
    Chairman Tom Davis. Thank you.
    [The prepared statement of Mr. Roth follows:]
    [GRAPHIC] [TIFF OMITTED] T8502.068
    
    [GRAPHIC] [TIFF OMITTED] T8502.069
    
    [GRAPHIC] [TIFF OMITTED] T8502.070
    
    [GRAPHIC] [TIFF OMITTED] T8502.071
    
    [GRAPHIC] [TIFF OMITTED] T8502.072
    
    [GRAPHIC] [TIFF OMITTED] T8502.073
    
    Chairman Tom Davis. Thank you very much. I appreciate 
everybody's perspective on this. Obviously, people come at this 
from different perspectives. It is important for us to 
understand all of them.
    I think what is important to understand is we heard in Mr. 
Ink's testimony the issue for us is how the Government performs 
something, not whether we perform it or not. That's a huge 
issue. This is not a downsizing issue, in my judgment.
    And let me just ask you, Mr. Roth and Ms. Kelley, if we 
could, as a part of this, ensure that you wouldn't be 
eliminating employee jobs, that you'd have whistleblower 
protections, collective bargaining rights, that you'd have 
merit, not favoritism, could you support under those 
circumstances and allow at least an alignment of duties to go 
under the executive branch and allow them to do it without 
coming up to our different committees and have it picked apart 
for petty jurisdictional reasons?
    Ms. Kelley. I am more than willing--NTEU is more than 
willing to talk about anything that would be added that would 
provide those kinds of things, Mr. Chairman. The concern, 
however, continues to be the inability to question or amend if 
all of those things that were important not just to employees 
but to the agency to be able to function and to the taxpayers 
who they are trying to serve. But I would be more than willing 
to look at anything you were willing----
    Chairman Tom Davis. That's a fair answer, and I think--I 
mean, one of the difficulties is that many times what has 
stymied the ability of administrations, both Republican and 
Democrat, to realign is Congress, is petty jurisdictional 
issues that, frankly, hold up much greater ways to save and be 
efficient and do things, and that's what we're trying to get 
at. This is not an effort to try to downsize and eliminate, and 
certainly on contracting out we could put safeguard language 
where you could use this authority if that's what you want to 
do. I don't have any problem with doing those kind of things. 
If that's the agenda then they ought to come up here 
separately. If you want to eliminate the Mohair Board or 
something, that's fine. They could come up here and do that and 
they would not--this procedure would not be usable for them.
    But when you start having all of the different child care 
agencies working under different authorities and try to 
consolidate that, you also shouldn't have to go through the 
House and the Senate and the jurisdictional issues that you 
reach with each subcommittee who doesn't want to lose a piece 
of it, too. And that's really the goal in trying to get at 
this.
    I know it is difficult to understand that at its face 
value, given the records of administrations, this one and other 
administrations in terms of their treatment of employees, and I 
understand that. I am sympathetic to you on those issues. But 
that's not my goal and I don't think it is the goal of Mr. Ink 
or Dr. Light, as we testified, but there are huge issues right 
now with an executive branch who we give--we give them a job to 
do, we give them programs--in terms of how they best align 
those programs.
    I'd also note that after we went through all of this with 
the Department of Homeland Security, neither one of your 
organizations were supportive of it at the end of the day. I 
think, from your perspective, there is an improved product. I 
think history will tell whether it was. I think we are going to 
be continuing--this is a--Homeland Security is, in my opinion, 
a continuing work in progress as we try to get it right and 
come back here, and it probably could have been done more 
efficiently, but on some of the employee rights issues that has 
got to be an underpinning to this whole issue. You've got to 
have appropriate safeguards or they can use another procedure. 
I think that's very clear.
    Mr. Roth. I agree with president Kelley. I also have a 
problem with the possibility of politicization if there is no 
ability to amend and you have a fast track. I am sympathetic 
and think that perhaps part of the reorganization authority 
should direct these proposals to one committee. That would deal 
with your problem that they go to, 30 to 40 committees because 
each one has a piece. I think we would support that part of the 
process.
    But let me give you an example. You had the BRAC process, 
which found that a number of DOD depots and facilities were 
under-utilized, and we realized that. There had to be a 
cutback. The cold war was over. They said to close McClellan, 
where we represented employees, close Kelly, and use the under-
utilized capabilities at Hill, Warner-Robbins, and Tinker. And 
right on the eve of a Presidential election President Clinton 
decided Texas is an important State; California is an important 
State. He tried unsuccessfully to issue something called 
``privatization in place,'' ignore the under-capabilities at 
these other facilities, and just privatize in place at Kelly to 
keep the jobs at Kelly and McClellan. That would have been in 
our interest short term to do but it was bad Government. It was 
bad for Government. Yet, under your proposal he could do 
something like that, a President could do that.
    Chairman Tom Davis. But he'd have to come back to the 
Congress to vote on it, and when you play that kind of 
politics, particularly in the Senate where each State gets two 
votes, it is unlikely to pass. That would be my counter-
argument to that.
    Mr. Roth. Well, my counter to that would be that they could 
put four programs in a bill that clearly are absurd or 
duplicative, that the public would resent knowing that we get 
into, and yet four that are crucial, and you would not have an 
ability to amend. You would vote against it because it had four 
crucial programs, and then the President could campaign against 
you for not eliminating the Mohair subsidy, you know.
    Chairman Tom Davis. Well, you get that now. I mean, you 
have that now in a lot of these----
    Mr. Roth. It's not a good thing.
    Chairman Tom Davis. I mean, nothing is perfect in a 
democracy. Nothing is perfect procedurally. I think--where I 
come to a conclusion and maybe where I differ with you is I 
think it has gotten--that we are tripping over ourselves 
sometimes in Government with duplication. I don't think there 
is a lot of fraud and abuse, but there is a lot of waste in 
Government. And the tragedy is it is not on the part of your 
members.
    Mr. Roth. Absolutely not.
    Chairman Tom Davis. Your members are out there working 
hard, coming in Fridays, Saturday, staying late to get the job 
done, but they're working under rules that we write sometimes 
that don't make any sense, requirements that we put on them 
that shouldn't have to be there, and it's sometimes working 
under an agency matrix that doesn't--that could be operated a 
lot more efficiently where they would feel better about their 
jobs, we'd feel better about the product. And that's what we're 
trying to get at. I mean, it's not fair to them, either. You 
know, how do you get to that conclusion.
    Mr. Roth. I think we----
    Chairman Tom Davis. Let me just finish and then I'll let 
you respond.
    Mr. Roth. Sure. I apologize.
    Chairman Tom Davis. What we have found is when you go 
through the congressional process there are so many ways to 
kill these issues it becomes very, very--you know, almost an 
impossible job. We had not had a major reorganization since 
FEMA before the Homeland Security, and part of that is because 
we had lost the reorganization authority and administrations 
float little things up here and they get knocked down. They 
ought to have more authority.
    Now, what ought to be in that underlying authority, what 
are the protections, at least in my judgment that's where I 
come down.
    And we had Donna Shalala and Bill Bradley and a number of 
people who have taken leadership roles in previous Democratic 
administrations who agree with this conceptually. To them the 
issue comes down to what are the appropriate safeguards and the 
devil being in the details.
    So I'd like to pursue this on their bipartisan 
recommendations, and I think our goal here isn't to try to 
preserve jobs at the Federal level, but I don't think our goal 
ought to be to eliminate them, either. And if they want to talk 
about downsizing, we'll make them go a different route. That's 
not the purpose of this, to try to somehow use some end run to 
try to get rid of jobs, to try to lose employee rights and try 
to manipulate the Federal work force. I think that is a loser 
if that's what we try to do. But we don't need people doing--
you know, five people doing the same kind of thing, trying to 
deliver the same kind of service running across each other. 
Experience has shown we have been singularly unsuccessful in 
eliminating those under the current Government formats that we 
have, and that's the purpose of it.
    I understand your concerns. I think it is very, very 
important that we take that into account as we construct this. 
And even if we end up with a product here that we don't like, I 
want to make sure that we understand every one of your concerns 
and try to address them along the way. You may institutionally 
not be able to support that for various reasons. I understand, 
Ms. Kelley, you don't like the tax cuts, and that you feel--
institutionally. A lot of your members get dividends. Of the 
beneficiaries of the dividends, 50 percent make under $50,000--
of the dividend tax cut. I'm in a District where 82 percent of 
my constituents are vested in the market. A lot of them are 
your members and your retirees. But we can have an honest--but 
that's not what this is about ultimately. This is ultimately 
about trying to make Government more efficient.
    I'm not trying to use--I think we will save money in the 
process, clearly, but, more importantly, I think that the 
people we're trying to deliver service to will get it delivered 
in a more timely fashion. That's our goal. So this is just the 
start of that dialog, but I want to be very clear, at least 
from my perspective and I think from the initiators of this 
perspective, that we want to try to bring as many adequate 
safeguards as we can to try to convince you what our goal is, 
and it is not to hurt you or your members.
    Ms. Kelley. If I could just add, Mr. Chairman----
    Chairman Tom Davis. Yes. Please.
    Ms. Kelley. I think--and there has been a lot of discussion 
about this today--that there are different kinds of 
reorganizations, and, while I am open to discussing anything 
and really to try to solve whatever the problems are, I have a 
hard time envisioning something the size of Homeland Security 
as a reorganization that could ever be on a fast track without 
the ability to question, debate, discuss, and amend. And then 
there are, of course, very small ones. If you're talking about 
moving 20 scientists from one agency to another, that's a very 
different kind. And then there are tons in the middle.
    Chairman Tom Davis. What if I told you I agreed with you? 
And if you look at previous----
    Ms. Kelley. I'd say that's great.
    Chairman Tom Davis. If you look at the previous 
reorganization authority, new Cabinet agencies were not subject 
to that. They would have to go a separate route. So I would 
agree with you on that.
    Ms. Kelley. Good.
    Chairman Tom Davis. If we could put that aside.
    Ms. Kelley. Great.
    Chairman Tom Davis. But there are a lot of little things in 
there--and, again, we just refer to the duplication over and 
over--that any executive ought to have the ability to come up 
here in a fairly quick manner, after consultation with 
Congress, to try to realign those responsibilities 
appropriately.
    Ms. Kelley. But that's the other point I'd just like to 
make on the issue of efficiencies. Within existing 
organizations, there are inefficiencies and things that could 
be done better and differently without----
    Chairman Tom Davis. Including this Congress.
    Ms. Kelley [continuing]. Reorganizing them.
    Chairman Tom Davis. Including Congress.
    Ms. Kelley. But in the 29 agencies. And we are missing huge 
opportunities within the existing agencies of tapping into the 
people who have a lot of information and ideas about how to do 
that, and that's the front line employees. And if we can't do 
it within the current structures, to then create larger 
structures where their voice will never be heard, the process 
will never work because it doesn't today. So I would like to 
also ask for help and support and emphasis on the agencies as 
they exist to build efficiencies into them.
    Chairman Tom Davis. Well, my experience as a county 
executive shows that--let me just make one other point. If you 
took a look at our allocations under the budget agreement, in 
my opinion the big savings are in contracting out, not that we 
save money in contracting out, which you do sometimes and you 
don't sometimes, but in the fact that many of these large-scale 
contracts have not been basically managed very well and we have 
wasted tens of billions of dollars. That's not going after 
Federal employees. In fact, as you know from my statements, I 
feel that we need a stronger in-house cadre in many cases to be 
able to keep these in house. Competitive sourcing shouldn't 
just be going from in to out, but we ought to be able to look 
at taking things in, but that also keeps the private sector 
honest, so to speak, or keeps them competitive, as well.
    I think that is all a part of this. I think there's a lot 
of savings in these areas. We're not just trying to pick on 
reorganization to do the bulk of this. In fact, I think that is 
a fairly small component of it, if that gives you a sense of 
what I'm thinking about.
    Mr. Ink.
    Mr. Ink. Mr. Chairman, I would argue that our goal ought 
not to be efficiency, anyway. I think it should be 
effectiveness. One of the problems with the A-76 out-sourcing 
is that it is driven almost exclusively by dollars. It doesn't 
take into account whether the operation is more or less 
effective, whether it is serving the public better or less 
good. I think we ought to have a broader concept of what we are 
after.
    Chairman Tom Davis. I think that is fair. I mean, 
efficiency is a piece of effectiveness.
    Mr. Ink. A piece of it. That's right.
    Chairman Tom Davis. But effectiveness is the bottom line.
    Mr. Ink. That's right.
    Chairman Tom Davis. Bottom line is the taxpayers that we 
take money out of their checks, Federal workers and non-
Federal, whoever pays, they ought to be able to get their 
dollar's worth in a most effective manner, and the people that 
we're trying to serve ought to be served as effectively as 
possible.
    Mr. Ink. Unfortunately, with A-76 there's not even a good 
measure of the dollars.
    Chairman Tom Davis. You get no argument from anybody here.
    Mr. Ink. But the objective I think ought to be 
effectiveness, not efficiency.
    Chairman Tom Davis. Correct. All right. Thank you. Those 
are my--I think those are my questions at this point.
    Mr. Van Hollen, do you have any questions?
    Mr. Van Hollen. Just a comment. Again, thank you, Mr. 
Chairman, for holding these hearings. I guess--and I've looked 
through some of the testimony. I was away for a little part of 
it. Dr. Light, I'm afraid I missed part of your testimony. But 
as a new Member, you know, having watched the Homeland Security 
Department process from afar, it clearly indicated where there 
was a priority on the part of the administration and the 
Congress to get something done. You might not have agreed with 
the final result and the shape of the department, but where 
there was a will and a determination to do it, it got through 
the Congress, and it got through relatively quickly, given the 
kind of organization that we are creating, this huge 
organization.
    So it seems to me the burden is on those who want to change 
the system to come up with concrete examples of where an 
administration had made a determined effort, they said, ``This 
is really an important thing. We want to make this change,'' 
and had failed to get it done. So I would be interested if you 
have some specific examples of where the system has really, 
really failed in terms of the--not necessarily the outcome, but 
the failure to give the issue the attention it deserves. I 
mean, there may be many cases where someone submitted a 
proposal where the Congress has looked at it and said, you 
know, ``We disagree.''
    The suggestion here is that it gets just bogged down in 
committees and there is no action, not because there is 
disagreement or agreement but just because nothing happens, so 
I would be very interested in sort of specific examples of 
where an administration had said, ``We think this is important. 
The Congress just hadn't moved at all.''
    Mr. Ink. I would be happy to provide a couple of examples.
    Mr. Van Hollen. Thank you.
    Mr. Light. It is nice to see you up there. I'm one of your 
constituents.
    Mr. Van Hollen. Thank you very much.
    Mr. Light. We could have a cup of coffee somewhere in the 
District.
    Mr. Van Hollen. I'd like to do that.
    Mr. Light. I think the examples given by my colleague from 
AFGE about DFAS and Defense Logistics and all the savings and 
achievements of DOD are intimately linked to the development of 
a fast track methodology for closing bases. It just was 
something that, even as an Article I person, you know, I've 
worked in both chambers--that you just were never going to get 
those bases closed through the ordinary legislative process. It 
just was rife with District and State interest.
    So I'm not saying that we're headed toward a Defense base-
closing kind of mechanism here. That's not what this 
reorganization authority would provide the President. You'd 
have to go some length in addition to that to get that kind of 
a restructuring kind of proposal through, as envisioned, for 
example, by the Government in the 21st Century Act that Senator 
Thompson had introduced over the last few Congresses.
    But we could give you plenty of examples of things that 
didn't get approved or where Congress said, ``No way. We're not 
going to do what you're suggesting.'' And I think that you have 
that capacity here.
    Mr. Van Hollen. Right. Well, I would be interested in that. 
In the base closures, you know, the administrations--past 
administrations, Democrat and Republican, had come up with a 
list and said, you know, ``We'd like to close these.'' 
Congress, for the reasons you said, said no. I'm not aware 
anywhere of, for example, this administration with that kind of 
list of changes that it wants to make to the Federal Government 
that we're sitting on down there. I mean, I'm sure there are a 
few minor ones, but in terms of things that really change the 
effectiveness and the delivery of services, I'm just not aware 
of anything the administration is--this administration has said 
that, ``This is a priority, we want to get it done'' that 
Congress is not moving on. And so it seems to me, before we 
change the process, we need to be really persuaded that it is 
broken, and I'm just looking for the evidence.
    Mr. Light. Good.
    Mr. Shays [assuming Chair]. Thank you.
    The Chair would be happy to recognize Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I don't have any questions.
    Mr. Shays. Let me say that this is a ``twofer'' for me, 
because yesterday I had someone from the Sterns School, where I 
went to get my graduate degree, and now I have someone from the 
Wagner school, where I got my other graduate degree.
    If my colleague doesn't want to have coffee with you, I 
would be happy to.
    Mr. Light. Very nice.
    Mr. Shays. To me it seems like this kind of classic debate, 
so I understand and appreciate where those who are representing 
Federal employees would be coming from. You don't want 
something done arbitrarily. You have your members you are 
concerned with. And then the other side of it is that we do 
know that any organization needs to be reorganized, and it 
needs to happen more often now than in the past, and we have a 
group of incredible people who are involved with the 21st 
century, including people like Donna Shalala and Senator 
Bradley I think was part of it, and recommendation three was 
that the President should be given expedited authority to 
recommend structural reorganization of Federal agencies and 
departments. I mean, they were looking at the Government, and 
that's what they said.
    Then, when Donna Shalala was here, she said this is the 
most important but it is going to be the most difficult. Now, 
she said some other things. She said there should be less 
political appointees and more professionals. There needs to be 
more continuity. I haven't yet asked my question because I just 
want to say, based on the 9-years that I have been chairing a 
committee and a subcommittee, one of the things that is so 
clear to me is the fact that we don't use our employees well 
enough, and the other is that we have a lot of waste that we 
shouldn't have.
    I'd like both you, Ms. Kelley, and Mr. Roth to respond to 
the recommendation of the ``Urgent Business for America: 
Revitalizing the Federal Government for the 21st Century,'' the 
report of the National Commission on the Public Service. Would 
you tell me--they think it is the most important item. Do you 
agree with them? And is it just a matter of process? Or don't 
you not even agree?
    Ms. Kelley. I do not agree that that is the most important 
issue facing the Federal Government. I believe it is finding a 
way to recruit and retain the Federal work force that we have 
today and that we need for tomorrow, and that Federal pay is 
the No. 1 priority that is stopping that from happening. Last 
year I would have said it was No. 1 alone. Today I say it is 
tied with the threat of privatization of the work that Federal 
employees do, which is serving as a major deterrent to those 
who are considering a Federal career, wondering whether or not 
their position will even be done by a Federal employee next 
year or the year after it, and whether or not they can afford 
to raise a family and to have a lifestyle that they work very 
hard for in the county or the State or the city that they work 
when Federal pay is so far below what their counterparts are in 
the private sector. So I think those are the two most important 
issues facing the Federal agencies.
    Mr. Shays. Thank you, Ms. Kelley.
    Mr. Roth. I would agree with that. The human capital crisis 
and the insufficient pay are problems. I think the management 
systems are ineffectual and employees have no faith in the 
management systems. That has been proven out by a recent study 
by OPM that finds that people like their jobs but have no 
confidence in their supervision, yet these highest-level 
executives keep getting bonuses as their agencies are 
demonstrated to be failing. There's something off there.
    What I would want to finally add is the revitalization of 
labor/management partnership. For whatever reason, within a 
month of his Presidency, President Bush came in and rescinded 
labor/management partnership. Maybe it was too tied to the 
Clinton administration, but to the Unions it was not partisan.
    I'll just hold up an example, an award-winning partnership. 
One VA medical center saved $2,300,000. They are being honored 
this year. I could give you probably hundreds of examples where 
labor/management partnerships tackled massive overtime 
problems--Rock Island Army Base--that management, alone, could 
not deal with. Employees came in, redesigned their own 
schedules through partnership work teams, and there was then no 
more overtime, after previously having thousands of hours of 
overtime. At the Mint they saved millions of dollars by 
changing how they do work. This is in agency after agency.
    To their credit, the VA has been probably one of the best 
examples of an agency that has listened to front-line workers. 
I never thought they would. I thought they were the most 
pathetic agency in the 1970's and 1980's. I have been around 
that long, unfortunately. But in the 1990's they started having 
labor/management partnership councils, and in VA medical center 
after medical center they either integrated functions or they 
closed some hospitals, but it was all done in partnership. 
People didn't have to lose their jobs. Their talents were used 
in other ways. But they saved money, they cut down on patient 
waiting time. They totally revitalized the VA by any objective 
measure. They went to 22 VIZNS after they had hundreds of 
medical centers having independent authority. They were all----
    Mr. Shays. Ms. Kelley is beginning to think that maybe she 
should have taken more time to also talk about the all the 
great things that her folks are doing.
    Mr. Roth. And they have. They have done great things at IRS 
and Customs.
    Mr. Shays. So, for the record----
    Mr. Roth. I'll yield back to her, too, but I wanted to give 
you concrete examples----
    Mr. Shays. You don't control the time.
    Mr. Roth. I wanted to give you concrete examples----
    Mr. Shays. Yes, I hear you.
    Mr. Roth [continuing]. Of what we do every day.
    Mr. Shays. Let me just tell you, I----
    Mr. Roth. And we want to do more.
    Mr. Shays. I was trying to make Ms. Kelley smile, and she 
did, so for the record we'll note that. And just to say that I 
will tell you in my schooling theoretically the system is 
supposed to work that way, that we're supposed to involve the 
workers and management and you ultimately come up with the best 
decisions. The sad thing is, because there is such a lack of 
trust of the administration, a good concept that I think is a 
good concept--that any President should have the power to 
reorganize--and I think subject to what was done after the law, 
the court case where there was basically--had to be a 
concurrence of both the House and Senate, but an up or down, 
not being able to micro-manage the bill to me is just a 
tremendous powerful tool for a President and Congress, with the 
protection to employees that Congress can simply vote it down.
    But I understand, given the track record of the 
administration, that you don't even want to go down that road, 
but unfortunately, in terms of theory, it's supposed to work 
quite well that way.
    I'd love, Mr. Ink, for you and then Dr. Light for you to 
comment on anything I said in opening, or Ms. Kelley or Mr. 
Roth. Is this a classic kind of debate that takes place between 
labor and those who want to provide for some executive 
authority?
    Mr. Ink. No. It is today, but that's not been true in 
earlier times.
    Mr. Shays. What happened in earlier times?
    Mr. Ink. Well, when I was involved we had a very good 
relationship with the Unions, and, as a matter of fact, in the 
reorganizations that I have been associated with or in charge 
of, I always had the Union member representative as a member of 
my steering group.
    Mr. Shays. But they always knew, didn't they, that you had 
the authority to do the reorganization?
    Mr. Ink. What's that?
    Mr. Shays. They always knew you had the authority to do the 
reorganization.
    Mr. Ink. Yes.
    Mr. Shays. And that's a particular powerful tool.
    Mr. Ink. Yes.
    Mr. Shays. If you didn't have that authority, you might not 
have them at the table.
    Mr. Ink. Well, if we hadn't had the authority a number of 
these would have never emerged. I mentioned the Environmental 
Protection Agency.
    Mr. Shays. Right.
    Mr. Ink. There was tremendous concern across this country 
about the need for some kind of--for greater emphasis, greater 
attention, greater priority to environmental problems, but 
there are so many different interest groups that it was very, 
very difficult to even develop a piece of legislation that 
could be introduced, much less get a vote on it. And both the 
Republicans and Democrat leadership agreed it was impossible, 
but through the reorganization authority we were able to 
develop a compromise before the bill ever came up to Congress. 
We had extensive consultations with the different interest 
groups, with the Unions, and with the leadership, both 
Republican and Democrat, on the Hill. So when we came forward 
with the bill not everyone had agreed, but we had a 
surprisingly broad consensus and we were able to set up an 
Environmental Protection Agency which was certainly in the 
interest of the public.
    The same thing was true with the Consumer Product Safety 
Commission. So many different interest groups, but through the 
reorganization authority we were able to do what we could not 
have done through the regular legislation, and this is in the 
interest of the public.
    And I think we have to keep in mind that, important as we 
feel we are in the Government, it is the public that we serve 
and that should be our final and most important objective.
    Mr. Shays. Dr. Light, thank you for your patience.
    Mr. Light. You and I first met over in the House when I 
came with Mondale and Nancy Kassebaum Baker to talk about 
campaign finance reform when I was at Pugh, and all of our work 
at Pugh on campaign finance reform was driven by empirical 
research. I agree with organized labor on the vast majority of 
issues concerning the Federal work force. My main concern about 
recruitment right now is that I don't think it is a money issue 
primarily. I think it is partly about the money, but when we 
talk to young Americans about the choice between going 
nonprofit, where the vast majority of the Wagner School 
students go, at a much lower pay than they could have gotten in 
the Federal Government--to get a Wagner student to try for 
PMI--and we've got one this year, one Wagner student who is 
taking a PMI--Presidential management internship. When we talk 
to them about why they aren't interested in the Federal 
Government, the answer is it's the jobs. They don't want to be 
in these over-stacked, densely layered agencies where they 
cannot make a difference through their work. That's where I 
think organized labor and I are in agreement about de-layering 
these agencies and pushing authority and resources down to the 
bottom where employees want to make a difference. They just 
can't, given the thicket of obstacles that they face.
    For the young people that I deal with, it is not ``Show me 
the money,'' it's ``Show me the job.'' And reorganization 
authority is one tool in improving the attractiveness of 
Federal employment. It cannot be a tool that is abused, and I'm 
afraid that both Democratic Presidents and Republican 
Presidents over the last 12 years have given Federal employees 
and potential employees lots of reasons to worry about who 
their bosses are. But, you know, properly circumscribed, 
properly limited through potent and robust conversation with 
labor and others, I think that reorganization authority could 
be part of a tool kit for making the jobs much more attractive 
to all our students.
    How we got you into politics is a good instructive case as 
to what we need to do with our other publicly oriented 
students.
    Mr. Shays. I don't want you getting all your students 
running against me now. That's not----
    Mr. Light. We'll keep them in other Districts. [Laughter.]
    Mr. Shays. You know, I am so proud of the Federal 
employees. I notice that when I want to go home at 6 p.m., the 
roads are full. It is hard to leave. People come early and they 
stay late. I would hope--I would just tell you I hope we can 
find a solution to this. It would be I think a huge 
accomplishment for this committee to do something that hasn't 
been reauthorized since 1984. It is the right thing to do. The 
question is how do we do it. And if anyone can do it, it would 
be this chairman working with other members of this committee 
who live in the area, who you have coffee with sometimes, and 
others who obviously are going to make sure that Federal 
employees are not overlooked in this process. So I think in a 
sense it will be a test of this committee of how we involve 
your organizations and others in accomplishing this, but it 
really needs to happen. I think we'll just have to figure out 
how we provide some protections, how we have a process that 
involves the workers even in the legislation.
    I don't have any further comments. I would be happy to--is 
there anything that you might have stayed up last night 
thinking about that you wanted to put on the record? Usually 
those are the best comments, frankly. Is there anything before 
we close that you want to put on the record?
    Mr. Roth. I wanted to--I don't know if you were here for 
Mr. Ink's testimony. He mentioned in the previous 
reorganization acts there were specific labor protections and 
bargaining unit certification continuation provisions. 
Obviously, that takes a lot of concern off the mind of the 
union when you look at what happened at Homeland Security, and 
when you look at what happened at Transportation Security 
Administration where employees are basically at will, which I 
think will probably come back to haunt the Congress and TSA. 
The fact that Mr. Ink had the labor protections and the built-
in process of labor union involvement was probably a key to 
success.
    That's all I had to say.
    Mr. Shays. Thank you, Mr. Roth.
    Ms. Kelley, any comment?
    Ms. Kelley. No, thank you.
    Mr. Shays. Dr. Light.
    Mr. Light. None.
    Mr. Shays. Mr. Ink, any?
    Mr. Ink. Only this: The legislation I think is important. I 
give it strong support. But by itself it won't accomplish much 
and we do have to find ways of redeveloping a sense of trust 
which does not exist today. This is not just trust between 
labor and management, but trust between the executive branch 
and the Congress. This consultation is absolutely essential. 
And to think that you have to rely upon amendments after it has 
come up before Congress I think is a mistake because we need to 
find ways to reach agreement, we need to find ways to find 
common ground before the legislation even comes forward.
    In some instances, we won't be able to do that, but in most 
instances, at least it has been my experience--and I've 
represented the President in a number of these cases--in most 
instances it has been possible, provided we had a willingness 
in the executive branch to really consult genuinely with the 
Congress, and the Congress would approach it from a bipartisan 
vantage point.
    Mr. Shays. Thank you. I think that's a nice way to close.
    There are no more questions, so I would just say that the 
record will remain open for 2 weeks so that the witnesses may 
insert any additional information they wish into the record.
    I'd like to thank everyone for attending. I know the 
chairman wanted to convey the fact that he thinks this has been 
a very pro-
ductive hearing. You know him well enough to know that he will 
be working with you to see where common ground can be had so 
that we can move forward with this legislation.
    I thank you all very much. With that, the hearing is 
adjourned.
    [Whereupon, at 1:12 p.m, the committee was adjourned, to 
reconvene at the call of the Chair.]

                                   - 

</pre></body></html>
